July 2006
Report No. 06-014


The FDIC’s Industrial Loan Company
Deposit Insurance Application Process




        EVALUATION REPORT
                                                                                                    Report No. 06-014
                                                                                                            July 2006

                                       The FDIC’s Industrial Loan Company Deposit Insurance
                                       Application Process
                                       Results of Evaluation

                                       The FDIC has implemented a comprehensive process and procedures for
                                       reviewing, investigating, and approving deposit insurance applications,
                                       which include: (1) holding pre-filing meetings with applicants;
Background and Purpose of              (2) evaluating and investigating the application against seven statutory
Evaluation                             factors; (3) reviewing and assessing the applicant’s proposed business plan;
                                       (4) reviewing and processing the application at the regional office level; and
Industrial Loan Companies (ILC)
                                       (5) preparing an Order for deposit insurance containing conditions on
are FDIC-supervised, limited-
charter depository institutions.       applicant operations. For ILCs, the process also includes application review
ILCs may be owned by commercial        and approval at the FDIC headquarters level.
firms, and these parent companies
may not be subject to consolidated     Historically, the FDIC has maintained that it can impose conditions to
supervision by a federal regulator.    ensure sufficient autonomy and insulation of an ILC from its parent and to
As of March 2006, there were           adequately protect the ILC from the risks of being in a holding company not
61 ILCs with total assets of           subject to consolidated supervision. In that regard, the Corporation issued
$155 billion.                          guidance in March 2004 that emphasized the use of prudential conditions
                                       when approving applications for deposit insurance for financial institutions
The FDIC solely grants deposit         that will be owned by, or significantly involved in, transactions with
insurance and evaluates whether an
                                       commercial or financial companies.
ILC application for deposit
insurance meets statutory factors.
After approving the application, the   During this evaluation, the FDIC indicated that conditions associated with
FDIC issues an Order for insurance     the granting of deposit insurance are legally binding and are principally
that includes standard conditions      intended to notify the applicant of the FDIC’s operational expectations.
and, if warranted, includes            FDIC officials stressed, however, that examinations and offsite monitoring
nonstandard conditions.                activities are the primary means through which the FDIC ensures the safety
                                       and soundness of ILCs.
The FDIC uses conditions to
impose restrictions and establish      Based on our review of 12 ILC applications and 18 Orders for deposit
operating parameters and controls      insurance, we found that the FDIC followed most of its deposit insurance
on ILCs, including business plan
                                       application procedures and routinely imposed conditions associated with the
limitations. The FDIC may also
impose certain types of                granting of deposit insurance. We made the following observations:
nonstandard conditions on ILCs,
known as prudential conditions,        •   The FDIC did not always document or provide the results of pre-filing
which are related to separating and        meetings to examiners conducting field investigations. Documentation
insulating an ILC from its parent          and distribution of the results of pre-filing meetings would help to
company.                                   ensure that potential concerns with an application are promptly and
                                           effectively addressed during the field investigation.
The objective of this evaluation
was to evaluate the FDIC’s process
                                       •   In the Orders that we reviewed, the FDIC imposed most conditions on
for (1) reviewing, investigating,
and approving ILC applications for
                                           the ILC as opposed to the ILC parent. FDIC officials have stated that
deposit insurance and                      conditions imposed upon an ILC parent provide the FDIC with a means
(2) monitoring business operations         for requiring the parent company to adopt commitments, operations, and
to ensure adherence to conditions          procedures that enhance the safety and soundness of the ILC. The FDIC
imposed on ILCs. We placed                 could also impose conditions that require the parent company to provide
particular emphasis on the FDIC’s          information to facilitate the examiner’s ability to assess the various
monitoring of conditions associated        types of risk from the parent company and affiliate operations.
with ILC business plans.

       kkkkkkkkkkkkkkkkkkkkkkkkkkkkkkkk
OIG Recommendations                    Results of Evaluation (Continued)
We are making six recommend-
ations to strengthen the ILC deposit   •   The FDIC imposed conditions requiring ILCs to notify or seek FDIC
insurance application process and          approval before making significant business plan changes. We
subsequent monitoring of ILC               confirmed that the Corporation could pursue enforcement action
conditions and business operations.        should an ILC fail to notify the FDIC before changing its business
The recommendations address our            plan, based solely on the violation of such a condition. Further, FDIC
observations associated with:              officials stated that the Corporation can deny an ILC’s request for a
• documenting pre-filing                   business plan change as long as there is a reasonable basis for
  meetings;                                challenging the change—such as a safety and soundness issue or
• imposing conditions associated           violation of law or regulation.
  with deposit insurance
  applications;                        •   The FDIC imposed one prudential condition in the Orders that we
• obtaining the applicant’s                reviewed. In some cases, the Chartering State Authority imposed
  agreement in writing to                  conditions that were similar in nature to the FDIC’s prudential
  nonstandard conditions, and              conditions. However, the state conditions were associated with the
  confirming the applicant’s               granting of the charter, not deposit insurance, and the FDIC cannot
  compliance with conditions;              directly enforce state-imposed conditions. In response to our
• clarifying corporate guidance            observation, FDIC officials stated that the Corporation imposes
  for investigating the possible           conditions on a case-by-case basis, as it deems appropriate, based on
  impact of an applicant’s                 risks presented by an applicant’s proposal.
  proposed line of business on
  existing financial institutions
                                       •   The FDIC did not always have evidence in its files that the
  and the Deposit Insurance
  Fund; and
                                           Corporation had (1) obtained the applicant’s agreement in writing to
                                           nonstandard conditions included in the deposit insurance Order or
• addressing the status of
                                           (2) confirmed that the applicant had complied with, or had made
  conditions in visitation reports
  and Reports of Examination.              arrangements to comply with, all conditions before issuing the deposit
                                           insurance Order.
The FDIC concurred with each of
our recommendations and agreed to      •   The FDIC needs to issue guidance to (a) clarify corporate expectations
take action to address four of the         for investigating the probable impact of an applicant’s proposed
recommendations by                         business line on existing financial institutions and, ultimately, risk to
December 31, 2006 and the two              the Deposit Insurance Fund, and (b) emphasize that examiners
remaining recommendations by               document the basis for their conclusions on an applicant’s compliance
June 30, 2007.                             with those factors.

                                       Following the approval of an ILC deposit insurance application, the FDIC
                                       monitors ILC business operations through onsite examinations and offsite
                                       supervisory programs. The Corporation’s monitoring processes provide a
                                       reasonable supervisory approach to help ensure that ILCs adhere to the
                                       conditions imposed upon them, including those associated with business
                                       plans. However, the FDIC did not always address the status of conditions
                                       in visitation or examination reports, which could hamper offsite
                                       monitoring of compliance.
To view the full report, go to
www.fdicig.gov/2006reports.asp
                               TABLE OF CONTENTS
BACKGROUND                                                                          1
RESULTS OF EVALUATION                                                               4
NEW BANK APPLICATION PROCESS                                                        4
      Documenting and Transmitting Results of Pre-filing Meetings                   9
         Recommendation                                                             10
      Imposing Conditions Associated with Deposit Insurance Orders                  10
         Recommendation                                                             19
      Obtaining the Applicant’s Agreement in Writing to Nonstandard Conditions      19
      Confirming the Applicant’s Compliance with Conditions                         20
         Recommendations                                                            21
      Evaluating the Probable Impact of an Applicant’s Proposed Business Line on
      Existing Banks in the Community                                               21
         Recommendation                                                             24

THE FDIC’S MONITORING OF ILC BUSINESS OPERATIONS                                    24

      Onsite Supervisory Efforts                                                    24
      Offsite Monitoring Efforts                                                    26
      Results of OIG Review of FDIC ILC Monitoring Efforts                          26
      Monitoring Business Plan Conditions                                           27
      Addressing Conditions in Visitation Reports and Reports of Examination        29
         Recommendation                                                             31

CORPORATION COMMENTS AND OIG EVALUATION                                             31

APPENDICES
Appendix I: Objective, Scope, and Methodology                                       33
Appendix II: Types of Conditions That May Be Imposed                                36
Appendix III: Prudential Conditions                                                 37
Appendix IV: Review of Key ILC Application Processing Steps                         38
Appendix V: Review of Conditions Imposed for the 12 Sampled ILCs                    39
Appendix VI: Review of Conditions Imposed – Expanded Sample for                     41
              ILC Insurance Orders Granted from March 2004 to October 2005
Appendix VII: Chartering State Authority Conditions that Resemble FDIC Prudential   44
               Conditions
Appendix VIII: FDIC Nonstandard Conditions that Resemble Prudential Conditions      45
Appendix IX: Information Regarding the Probable Impact of Applicants on             46
              Existing Banks
Appendix X: Results of Sample Review of FDIC Onsite Monitoring Efforts              47
Appendix XI: Corporation Comments                                                   48
Appendix XII: Management Response to Recommendations                                54
TABLES
Table 1: Statutory Factors and Examples of FDIC Evaluation Steps                     6
Table 2: FDIC’s ILC Deposit Insurance Application Process                            7
Table 3: Results of OIG Review of ILC Deposit Insurance Application Files            8
Table 4: Standard and Nonstandard Conditions Imposed for the 18 Orders Reviewed     12
Table 5: Examples of Ongoing Conditions Associated with Business Plans              15
Table 6: Prudential Nonstandard Conditions                                          16
Table 7: Results of OIG Review of FDIC Monitoring Activities at Sampled ILCs        27
Table 8: Time-Specific and Ongoing Conditions for the 12 ILCs in our Sample         30
Table 9: Results of OIG Review of ILC Visitation and Examination Reports            31
Table 10: Types of Conditions that may be Imposed on Deposit Insurance Applicants   36
Table 11: FDIC Prudential Conditions in Orders for Deposit Insurance                37
Table 12: Chartering State Authority Conditions and Prudential Conditions           44
Table 13: Similarity of FDIC Nonstandard Conditions and Prudential Conditions       45
Table 14: ROI Comments on the Probable Impact of Applicants on Existing Banks       46

FIGURE
Distribution of ILC Assets by Charter State                                         3

ACRONYMS
CMLA                    Capital Maintenance and Liquidity Agreement
CMP Manual              Case Manager Procedures Manual
DFI                     Department of Financial Institutions (Utah)
DSC                     Division of Supervision and Consumer Protection
FDI Act                 Federal Deposit Insurance Act
FDIC                    Federal Deposit Insurance Corporation
GAO                     Government Accountability Office
ILC                     Industrial Loan Company
LIDI                    Large Insured Depository Institution
OIG                     Office of Inspector General
ORL                     Offsite Review List
PBO                     Parallel Banking Organization
RDM                     Regional Director Memorandum
RMAS                    Risk Management Application Section
RM Manual               Risk Management Manual of Examination Policies
ROE                     Report of Examination
ROI                     Report of Investigation
SOI                     Summary of Investigation
ViSION                  Virtual Supervisory Information On the Net System
Federal Deposit Insurance Corporation                                                                      Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                       Office of Inspector General



DATE:                                     July 20, 2006

MEMORANDUM TO:                            Sandra L. Thompson
                                          Acting Director
                                          Division of Supervision and Consumer Protection




FROM:                                     Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                          Assistant Inspector General for Audits


SUBJECT:                                  The FDIC’s Industrial Loan Company Deposit Insurance
                                          Application Process
                                          (Report No. 06-014)

Industrial Loan Companies (ILC) are state-chartered, FDIC-supervised financial institutions that
may be owned by commercial firms that are not regulated by a federal banking agency.1 The
ILC charter has received considerable attention in recent years as part of the ongoing debate
about the mixing of banking and commerce. Our previous review of ILCs focused on the
FDIC’s supervision of ILCs and the Corporation’s approach in determining and mitigating
material risks posed to ILCs by parent companies. We presented the results of that review in the
Office of Inspector General (OIG) September 2004 report entitled, The Division of Supervision
and Consumer Protection’s Approach for Supervising Limited-Charter Depository Institutions
(Report No. 2004-048).

The objective of this evaluation was to evaluate the FDIC’s process for (1) reviewing,
investigating, and approving ILC applications for deposit insurance and (2) monitoring business
operations to ensure adherence to conditions imposed on ILCs. Appendix I includes additional
details on our objective, scope, and methodology.

BACKGROUND

The FDIC is solely authorized to approve applications for deposit insurance, including ILC
applications. In the case of ILCs, the chartering authority is the respective state regulatory
agency. Approvals must be granted by the FDIC and the Chartering State Authority for an ILC
to accept insured deposits. The FDIC is the primary federal regulator of ILCs. The Chartering
State Authority also has responsibility for supervising and monitoring the ILCs in the respective
state.


1
 Parent companies of ILCs may be subject to other federal agency supervision such as by the Office of Thrift
Supervision (for parent companies affiliated with savings institutions) or oversight by the Securities and Exchange
Commission (for parent companies that are publicly traded).




                                                             1
The Board of Directors of the FDIC (FDIC Board) is charged by Sections 5 and 6 of the Federal
Deposit Insurance (FDI) Act with the responsibility of acting on applications for federal deposit
insurance by all depository institutions, including ILCs. The FDIC Board delegated this
responsibility to the Division of Supervision and Consumer Protection (DSC), but the FDIC
Board retained the authority to deny applications for deposit insurance and to approve deposit
insurance where either the applicant does not agree in writing to comply with any condition
imposed by the FDIC or the applicant is part of a parallel-owned banking organization (PBO).2

In considering applications for deposit insurance, DSC must evaluate each application in relation
to the seven statutory factors prescribed in Section 6 of the FDI Act.3 Those factors are:

•   the financial history and condition of the proposed depository institution;
•   the adequacy of its capital structure;
•   its future earnings prospects;
•   the general character and fitness of its management;
•   the convenience and needs of the community to be served by the depository institution;
•   the risk presented by such depository institution to the deposit insurance fund; and
•   whether its corporate powers are consistent with the purposes of the FDI Act.

The FDIC has provided general information and instructions for completing and submitting
applications for deposit insurance through its regulations, statement of policy on applications,4
and deposit insurance application form. An application for deposit insurance requires the
submission of a comprehensive business plan that establishes the proposed institution’s goals and
objectives, addresses the first 3 years of operations, and provides detailed explanations of
proposed actions for accomplishing the primary functions of the institution. The business plan
should provide sufficient detail to demonstrate that the institution has a reasonable chance for
success, will operate in a safe and sound manner, and will have adequate capital to support the
institution’s risk profile.

Upon approval of the application, the FDIC issues an Order for deposit insurance that includes
standard conditions and may include nonstandard conditions. Conditions are derived from the
elements of a proposal that raise supervisory concern or otherwise warrant attention. Among the
primary considerations for conditions are the nature and scope of the business plan, the corporate
structure within which the financial institution will operate, and the risk inherent in the overall
proposal. The FDIC uses conditions to impose restrictions and to establish operating parameters
and controls on the institution for a set period of time—usually up to the first 3 years of
operation—or for an indefinite period of time. Appendix II describes the types of conditions that
the FDIC may impose when approving deposit insurance applications.

2
  A PBO is created when at least one U.S. depository institution and one foreign bank are controlled either directly
or indirectly by the same person or group of persons who are closely associated in their business dealings or
otherwise acting in concert.
3
  In addition to the statutory factors, the considerations required by the National Historic Preservation Act of 1966
and the National Environmental Policy Act of 1969 must also be resolved favorably in order for the applicant to
receive deposit insurance.
4
  FDIC Statement of Policy on Applications for Deposit Insurance, effective October 1, 1998, amended at 67 Fed.
Reg. 79278, December 27, 2002.


                                                          2
One of the requisites for obtaining deposit insurance is that the applicant has been granted a
charter by the appropriate state or federal supervisory authority.5 A charter is a legal
authorization from the state or federal agency giving a bank the authority to commence business.
Each Chartering State Authority is subject to its own governing statutes and regulations, which
vary by state. Chartering State Authorities are solely responsible for chartering decisions,
whereas the FDIC is solely responsible for deposit insurance decisions. These decisions are
separate and distinct. The FDIC and Chartering State Authorities have established cooperative
arrangements that begin with the initial contacts from applicants and extend through the
application process.

As of March 31, 2006, there were 61 ILCs located in 7 states with total assets of $155 billion as
illustrated in the figure below. Utah chartered the greatest number of ILCs (54 percent) and the
majority of ILC assets (82 percent).

                  Distribution of ILC Assets by Charter State



                                                                                    Utah $127 Billion
                         Other $1 Billion*                                            82% - 33 ILCs
                            1% - 8 ILCs




                      Nevada $9 Billion
                        6% - 5 ILCs



                                  California $17 Billion
                                     11% - 15 ILCs




                 Source: OIG analysis of DSC’s listing of ILCs.
                 Note: Other states chartering ILCs are Hawaii, Colorado, Minnesota, and Indiana.
                 Numbers do not total $155 billion due to rounding.



During the 5-year period December 2000 through December 2005, the FDIC approved deposit
insurance applications for 780 institutions, of which 19 were for ILCs. During the same period,
105 applications for deposit insurance were withdrawn by the applicants, of which 12 were ILC
applicants. Three of the twelve withdrawn applications were subsequently re-filed and approved
for deposit insurance. DSC noted that it is rare for the FDIC to deny an application, because
most applicants usually withdraw troubled applications before they reach the stage of approval or
denial.



5
 Chartering State Authorities grant charters to financial institutions, including ILCs. The Office of the Comptroller
of the Currency is responsible for chartering all national banks.


                                                           3
In our previous report on the FDIC’s supervision of ILCs, we concluded that ILCs may pose
additional risks to the deposit insurance fund by virtue of the fact that these depository
institutions’ parent holding companies are not always subject to the scope of consolidated
supervision, consolidated capital requirements, or enforcement actions imposed on parent
organizations subject to the Bank Holding Company Act of 1956. Further, the banking
organizations that are being created as a result of an ILC charter are permitted some mixing of
banking and commerce activities, which is otherwise prohibited for most depository institutions
owned by commercial firms. However, we concluded that DSC had established controls to help
mitigate these added risks.


RESULTS OF EVALUATION

The FDIC has implemented a comprehensive process and procedures for reviewing,
investigating, and approving deposit insurance applications, which include: (1) holding pre-
filing meetings with applicants; (2) evaluating and investigating the application against seven
statutory factors; (3) reviewing and assessing the applicant’s proposed business plan;
(4) reviewing and processing the application at the regional office level; and (5) preparing an
Order for deposit insurance containing conditions on applicant operations. For ILCs, the process
also includes application review and approval at the FDIC headquarters level.

In our review of 12 ILC applications, we noted that case managers, examiners, and Washington
Office staff, for the most part, followed established policies and procedures in performing
reviews, investigations, and analyses involved in the process. However, the FDIC could
strengthen the following elements of the deposit insurance application process: documenting
pre-filing meetings; clarifying the importance of and need for conditions associated with deposit
insurance applications; and clarifying expectations for deposit insurance investigations in
evaluating the probable impact of an applicant’s business line on existing financial institutions in
the community to be served.

Following the approval of an ILC deposit insurance application, the FDIC monitors ILC business
operations through onsite examinations and offsite supervisory programs. The Corporation’s
monitoring processes provide a reasonable supervisory approach to help ensure that ILCs adhere
to the conditions imposed upon them, including those associated with business plans. However,
the FDIC could more fully address the status of conditions in visitation and examination reports.


NEW BANK APPLICATION PROCESS

The FDIC evaluates applications for deposit insurance against the requirements and processes of
Sections 5 and 6 of the FDI Act, Sections 303.20-25 (Deposit Insurance) of the FDIC Rules and
Regulations, and the FDIC Statement of Policy on Applications for Deposit Insurance. The
FDIC also issued the following guidance to DSC staff for evaluating deposit insurance
applications:




                                                 4
•   Case Manager Procedures Manual, (CMP Manual) Part II – Applications. Section 20,
    Applications Overview, includes case manager responsibilities and an overview of the
    application process. Section 21, Federal Deposit Insurance, discusses application types,
    receipt and acceptance, statutory factors, field investigations, and delegated authority.

•   Risk Management Manual of Examination Policies, (RM Manual) Chapter 12.1 –
    Applications, and Chapter 18.1 – Report of Investigation (ROI) Instructions. Chapter 12.1
    includes a discussion of an examiner’s responsibility in regard to investigating an application
    against the seven statutory factors. Chapter 18.1 provides general instructions for conducting
    field investigations and preparing ROIs and provides that the ROI should detail the relevant
    facts pertinent to each of the statutory factors and state the examiner’s opinion as to whether
    the criteria for each factor has been met.

•   Regional Director Memorandum (RDM) 2004-011, Imposition of Prudential Conditions in
    Approvals of Applications for Deposit Insurance, dated March 12, 2004. This RDM
    discusses prudential conditions that might be imposed in approving applications for deposit
    insurance involving financial institutions to be owned by or significantly involved in
    transactions with commercial or financial companies, should the risk characteristics of a
    given proposal, including an ILC proposal, warrant such action. See Appendix III for details.

•   RDM 2004-012, Guidance Related to Parallel-Owned Banking Organizations, dated
    March 24, 2004. This RDM describes procedures to be used by examiners and case
    managers when evaluating a bank’s organizational structure and assessing its relationship,
    existing or potential, with companies that may be part of a PBO. The procedures described
    in this RDM are applicable for reviewing deposit insurance applications and conducting
    safety and soundness visitations and examinations.

The intention of this guidance is to ease administration, prevent arbitrary judgment, and assure
uniform and fair treatment of all applicants. Table 1 on the next page presents a brief discussion
of each statutory factor and examples of steps that an examiner may take to evaluate each factor.




                                                 5
Table 1: Statutory Factors and Examples of FDIC Evaluation Steps
                                                                          Examples of Investigative Steps to Evaluate
                       Statutory Factors
                                                                                         Application
Financial History and Condition—The primary areas of                   Assess the applicant’s projected asset and deposit
consideration are the ability of organizers and incorporators of        mix for reasonableness as compared to the
the proposed depository institution to provide financial support        proposed business plan and an appropriate peer
to the new institution; investment in fixed assets, including lease     group.
obligations; and insider transactions.                                 Construct the projected balance sheet for the first 3
                                                                        years of operation.
Adequacy of the Capital Structure—Normally, the initial                Using capital data contained in the application,
capital of a proposed depository institution should be sufficient       construct a proposed capital structure table.
to provide a Tier 1 capital-to-assets leverage ratio of not less       Assess the deposit forecasts and make any
than 8.0% throughout the first 3 years of operation. In addition,       necessary adjustments.
the depository institution must maintain an adequate allowance
for loan and lease losses.
Future Earnings Prospects—The FDIC must have reasonable                Determine whether the proposed bank is likely to
assurance that the new institution can be operated profitably.          be profitable within a reasonable period of time,
Therefore, the incorporators will need to demonstrate through           usually 3 years.
realistic and supportable estimates that, within a reasonable          Evaluate applicant’s projections.
period (normally 3 years), the earnings of the applicant will be
sufficient to provide an adequate profit.
General Character and Fitness of Management—The FDIC                   Provide an overall assessment of the management
evaluates the applicants’ proposed management structure,                team and board of directors.
including individual managers’ business experience, financial          Conduct personal interviews with all of the
responsibility, reputation, and familiarity with the community in       organizers, senior management, and directors.
which the depository institution will operate.
Risk Presented to the Insurance Fund—The FDIC must be                  Assess the proposed institution’s business plan,
assured that the proposed institution does not present an undue         particularly any unsound activities, practices, or
risk to the insurance fund. In making this determination, the           other issues.
FDIC will rely on any information available to it, including, but      Address any high-risk activity to establish market
not limited to, the applicant's business plan.                          share, attain growth, or provide for profitable
                                                                        operations.
Convenience and Needs of the Community to be Served—The                Assess the competitive dynamics of the proposed
essential considerations in evaluating this factor are the deposit      market, how the institution will compete for market
and credit needs of the community to be served, the nature and          share, and the probable impact of the proposed
extent of the opportunity available to the applicant in that            business line on other banks in the community.
location, and the willingness and ability of the applicant to serve    Solicit the views of other bankers and, as
those financial needs.                                                  necessary, representative business and professional
                                                                        persons in the community together with those of
                                                                        citizens of more modest means.
Consistency of Corporate Powers—No insured state bank may              Determine whether the applicant’s Articles of
engage in any type of activity that is not permissible for a            Incorporation contain any corporate powers that are
national bank unless the FDIC has determined that the activity          inconsistent with the FDI Act.
would pose no significant risk to the deposit insurance fund and
the state bank is in compliance with applicable capital standards.
Source: OIG analysis of FDIC Statement of Policy on Applications for Deposit Insurance and RM Manual.

The application process involves field examiners, regional case managers, and Washington
Office participation from DSC’s Risk Management Application Section (RMAS) and FDIC’s
Legal Division. Table 2 presents the key events in the application review and approval process.



                                                            6
 Table 2: FDIC’s ILC Deposit Insurance Application Process
             Key Event                                                       Description

Holding a pre-filing meeting             The FDIC holds pre-filing meetings with organizers and incorporators of
                                         proposed depository institutions prior to submission of the deposit insurance
                                         application to discuss the FDIC’s expectations for bank directors and senior
                                         management, business plan and capital requirements, and the regulatory
                                         application/examination process.
Reviewing application for                A regional office case manager performs the initial review of the application and
completeness                             prepares a summary memorandum describing the business plan and proposed
                                         ILC management and renders a decision on the application’s completeness.
                                         The case manager forwards the summary memorandum to regional office and
                                         headquarters senior management for review and concurrence. The case manager
                                         returns the application if it is not complete.
Processing the application through a     Applications that will be approved in DSC headquarters receive parallel
regional office and DSC headquarters     processing. Results of the pre-filing meeting with a prospective ILC are relayed
parallel review                          to DSC headquarters. The regional office coordinates with the Washington
                                         Office concerning any additional information needed from the applicant.
Conducting a field investigation to      A field office examiner reviews the entire application and business plan to
evaluate an application against the      identify potential problems, incomplete or inconsistent information, areas of non-
seven statutory factors, including a     compliance with the Statement of Policy and/or federal and state banking
review of the proposed business plan     statutes, and any other factors requiring additional attention. The examiner
                                         prepares an ROI, which details the relevant facts pertinent to each of the seven
                                         statutory factors, whether each factor has been favorably resolved, and a
                                         recommendation on the approval of the application.
Reviewing the completed ROI and          The case manager reviews the ROI for accuracy and consistency with FDIC
preparing the summary of                 policy. The case manager prepares an SOI, which summarizes the major
investigation (SOI)                      findings of the investigation as they relate to each of the statutory factors and
                                         concludes with a statement as to whether the finding is Favorable, Unfavorable,
                                         or Favorable Subject to Conditions. The case manager also makes a
                                         recommendation on the approval of the application. Regional office
                                         management reviews the SOI and makes recommendations for application
                                         approval.
Preparing an Order for deposit           RMAS in DSC headquarters reviews the ROI and SOI and prepares the Order for
insurance containing standard and        deposit insurance. RMAS may impose additional standard and nonstandard
prudential or other nonstandard          conditions (including prudential conditions). Conditions may be precedent in
conditions                               nature (the applicant must meet the condition before being granted deposit
                                         insurance) or antecedent in nature (the applicant must continue to meet the
                                         condition following the granting of deposit insurance).
Obtaining an applicant’s written         As the applicant’s primary point of contact, the regional office obtains the
agreement to prudential and other        applicant’s written agreement to prudential and other nonstandard conditions.
nonstandard conditions
Acquiring evidence of the applicant’s    The regional office verifies the compliance with time-specific conditions prior to
compliance with or definite and          the institution’s opening based upon the financial institution’s submission of
certain arrangements to comply with      information and supporting documentation that is sufficient to demonstrate
the conditions in the Order              compliance with the conditions.
 Source: OIG analysis of the CMP Manual and the RM Manual and interviews with DSC officials.

 The FDIC processes ILC applications similarly to non-ILC applications for deposit insurance
 with two important exceptions. First, ILC applications are subject to parallel, or concurrent,


                                                            7
processing by the applicable regional office and DSC’s Washington Office. Second, DSC’s
Washington Office retains the authority to approve ILC Orders for insurance.

Although applicants are required to satisfy requirements under each of the seven statutory
factors, in a newly organized institution, the FDIC views management, capital adequacy, and risk
to the fund as the most important factors. DSC’s guidance in regard to applications states that
the quality of an institution’s management is vital and may be the most important element in
determining the applicant’s acceptability for deposit insurance.

As shown in Table 1, the statutory factors and DSC’s guidance for evaluating applications
address the applicant, for the most part. However, the FDIC does consider the parent company
in some instances in assessing the statutory factors. For example, DSC’s guidance states that the
ability of “the proponents” to provide financial support to the new organization should be
evaluated in the assessment of the Financial History and Condition statutory factor.

We reviewed 12 ILC applications and noted that case managers, examiners, or Washington
Office staff followed most of the applicable procedures when reviewing, investigating, and
approving deposit insurance applications as presented in Table 3. The detailed results of our
review in this area are included in Appendix IV of this report.

Table 3: Results of OIG Review of ILC Deposit Insurance Application Files
                          Application Processing Steps                             Cases Showing Evidence of
                                                                                   Processing Step Performed
Holding a pre-filing meeting                                                                7 of 12
Reviewing the application for completeness                                                 12 of 12
Processing the application at the regional and Washington Office level                     12 of 12
Conducting a field investigation and a review of the proposed business plan                11 of 12
Reviewing the report of investigation and preparing the summary of investigation           12 of 12
Preparing a deposit insurance Order containing standard and nonstandard                    12 of 12
conditions
Obtaining applicant’s written agreement to nonstandard conditions                           6 of 10
Acquiring evidence of applicant’s compliance with the conditions in the Order               5 of 12
Source: OIG analysis of examiner, case manager, and RMAS files.

However, the following elements of the process could be strengthened: documenting and
transmitting the results of pre-filing meetings, imposing conditions, obtaining an applicant’s
written agreement to nonstandard conditions, confirming an applicant’s compliance with
conditions, and assessing an applicant’s probable impact on existing banks in the community to
be served. These areas are discussed in more detail in the following sections.




                                                         8
Documenting and Transmitting Results of Pre-filing Meetings

In our review of 12 ILC applications for deposit insurance, we found that DSC did not always
document pre-filing meetings. When DSC had prepared pre-filing meeting memoranda, they
were not distributed to examiners conducting the field investigations for deposit insurance
applications. DSC’s policies do not require the documentation and distribution of pre-filing
meetings. However, the field investigation process could be enhanced by instituting such a
requirement to help ensure that identified concerns are addressed in the investigation.

The CMP Manual recommends that DSC conduct pre-filing meetings for all insurance
applications and states, “It is strongly recommended that a representative(s) of the organizing
group meet with the chartering authority and the FDIC prior to filing an application to reach an
understanding of the information requirements of each agency.” The CMP Manual also states
that, during pre-filing meetings, DSC should notify applicants that:

•   certain conditions requiring an applicant’s prior written agreement (nonstandard conditions)
    may be imposed;
•   recommended conditions are intended to achieve a standard for prudent operations that is
    expected of all newly insured institutions;
•   conditions may be imposed beyond the institution’s initial 3-year period of operation; and
•   liquidity and/or capital maintenance agreements with proposed institutions’ parent companies
    may be necessary.

DSC documented the results of a pre-filing meeting for 5 of the 12 ILCs in our sample. For two
of the remaining seven ILC applicants for which we did not locate records of pre-filing meetings,
DSC provided other evidence that the pre-filing meeting had occurred. The documentation for
only one pre-filing meeting noted that DSC had discussed the potential imposition of
nonstandard conditions as stipulated in the CMP Manual. The memoranda and notes we
reviewed typically did not discuss whether DSC had notified the applicants of the purpose of
conditions, certain conditions that may be imposed, certain conditions that may be imposed
beyond the bank’s initial 3-year period of operation, and liquidity and/or capital maintenance
agreements that may be necessary. Furthermore, for those pre-filing meetings that were
documented, the memoranda or notes had not been distributed to the examiners conducting the
field investigations.

DSC’s policies do not require that the results of a pre-filing meeting be documented or that the
pre-filing meeting memorandum be distributed to examiners. Pre-filing meetings are, in large
part, intended to improve the quality and completeness of submitted applications. However, an
underlying purpose of pre-filing meetings is to expeditiously identify and address concerns. To
the extent that potential concerns are identified and require further review or consideration
during the field investigation, formal documentation and distribution of the pre-filing meeting
results would help to ensure that those potential concerns are promptly and effectively addressed
during the field investigation.




                                                9
Recommendation

We recommend that the Acting Director, DSC:

1. Require that pre-filing meetings be documented and that DSC include the results of the pre-
   filing meetings in the application material submitted to examiners responsible for conducting
   field investigations of deposit insurance applications.

Imposing Conditions Associated with Deposit Insurance Orders

Historically, the FDIC has maintained that it can impose conditions to preserve an ILC’s
autonomy and insulate an ILC from its parent and protect an ILC from the risks of being in a
holding company not subject to consolidated supervision. During this evaluation, the FDIC
indicated that conditions associated with the granting of deposit insurance are legally binding
and are principally intended to notify the applicant of the FDIC’s operational expectations.
FDIC officials stressed, however, that examinations and offsite monitoring activities are the
primary means through which the FDIC ensures the safety and soundness of ILCs.

We found that the FDIC routinely imposed standard and nonstandard conditions as part of the
18 ILC Orders for deposit insurance that we reviewed. Appendix V and Appendix VI provide
details regarding the conditions imposed in the Orders we reviewed. We also made the
following observations in regard to these imposed conditions.

•   The FDIC imposed most conditions on the ILC rather than on a parent company.
•   The FDIC imposed business plan conditions requiring ILCs to notify or seek FDIC approval
    before making significant business plan changes.
•   The FDIC imposed one prudential condition in the ILC deposit insurance Orders that we
    reviewed. In a number of cases, the Chartering State Authority imposed conditions similar in
    nature to prudential conditions.

The following sections of this report discuss each of these issues in more detail.

Importance of Conditions in Monitoring ILC Operations: Conditions may be standard or
nonstandard (the applicant must provide written agreement to a nonstandard condition) and
precedent (the applicant must meet the condition before being granted deposit insurance) or
antecedent (the applicant must continue to meet the condition following the granting of deposit
insurance) in nature. The appropriate regional or area office is responsible for verifying
compliance with time-specific conditions prior to an institution’s opening. Such verifications are
based upon the financial institution’s submission of information and supporting documentation
that is sufficient to demonstrate compliance with the conditions.

Historically, the FDIC has maintained that its authority to impose conditions associated with the
granting of deposit insurance was one important way that the FDIC could insulate an ILC from
its parent. The following examples illustrate the FDIC’s position on this matter in the past.




                                                10
•   April 2003 letters from the FDIC to Senate and House representatives discussed the
    importance of controls and prudential factors that the state authority or the FDIC typically
    imposes to ensure sufficient autonomy and insulation of the bank from its parent.

•   A May 2003 speech from the FDIC Chairman regarding ILCs before the Conference of State
    Bank Supervisors discussed significant restrictions on new ILCs before they receive deposit
    insurance and mandated safeguards such as onsite management, independent boards of
    directors, and strict guidelines to ensure arms-length transactions with the parent and other
    affiliates.

•   A June 2004 DSC Supervisory Insights article discussed prudential conditions that may be
    imposed when approving deposit insurance applications for institutions that will be owned by
    or significantly involved in transactions with commercial or financial companies. The article
    also noted that the state authority, the FDIC, or both, typically impose certain controls to
    guarantee sufficient autonomy and insulate the bank from its parent.

•   A September 2005 United States Government Accountability Office (GAO) report6 included
    reference to the FDIC’s position that the Corporation could adequately protect an ILC from
    risks arising from being in a holding company without adopting a consolidated supervision
    approach by, among other things, imposing requirements on an ILC holding company in
    connection with an application for deposit insurance, as a condition of insuring the ILC.

During our evaluation, we received comments from FDIC officials that were not always
consistent with the FDIC’s historical position on conditions. We concluded that clarifying policy
or guidance addressing the purpose and importance of conditions is needed.

Standard and Nonstandard Conditions: We determined that the FDIC routinely imposed
standard and nonstandard conditions, including conditions associated with business plans, as
shown in Table 4 on the next page.




6
 Industrial Loan Corporations – Recent Asset Growth and Commercial Interest Highlight Differences in Regulatory
Authority (GAO-05-621, September 2005).


                                                      11
Table 4: Standard and Nonstandard Conditions Imposed for the 18 Orders Reviewed
                                                                                               Number of Times
 Standard Conditions Pursuant to Regulation (Section 303.2(dd))
                                                                                               Condition Imposed
     State Approval Obtained                                                                            17
     Time Limit for Deposit Insurance to Become Effective (1 Year)                                      18
     Conditional Commitment and Interim Developments                                                    18
     Merger Transaction: Consummation Period                                                             0
 Standard Conditions Pursuant to Delegated Authoritya
  Beginning Paid-In Capital Funds                                                                       18
     Maintenance of an 8 Percent Tier 1 Leverage Capital Ratio for 3 Years                             15b
     Approval of Changes in Proposed Management and Ownership of 10 Percent or                          16
      More of Stock
     Adoption of an Accrual Accounting System                                                            8
     Consummation of Related Transaction                                                                 0
     Proposed Holding Company Approval to Acquire Control                                                0
     Submission of Proposed Agreements for Permanent Quarters                                            1
     Disclosure of Insider Interest                                                                      2
     Acceptable Principal Operating Officer(s)                                                           2
     Adequate Fidelity Coverage                                                                          9
     Independent Financial Statement Audit for 3 Years                                                  15
     Notification of Proposed Material Changes to the Business Plan for 3 Years                         11
     Acquisition and Maintenance of Requisite Deposits                                                   1
     Any Standard Condition Defined in Section 303.2 (dd)                                       Presented Above
 Examples of Nonstandard Conditions Imposed on 18 ILCs in OIG Review
  No Dividend Distribution Without Prior Approval for 3 Years                                            6
     Ongoing Notification of Proposed Material Changes to the Business Plan                              4
     Retention of a Majority of Outside Directors                                                        3
     Purchase of Affiliate Assets: Compliance with Sections 23A and 23B         c
                                                                                                          2
Source: OIG analysis of DSC policies and procedures and Orders for deposit insurance.
a
   These conditions also include a condition that is identical to the State Approval Obtained condition listed under
   the Standard Conditions Pursuant to Regulation.
 b
   The Order for one of the remaining three ILCs contained a nonstandard condition for capital maintenance of
   greater than 8 percent. The business plan for one of the three ILCs reflects capital maintenance in excess of
   12 percent for the first 3 years of operations. In addition, the Chartering State Authority imposed capital
   maintenance conditions of greater than 8 percent for the three ILCs.
c
   Sections 23A and 23B of the Federal Reserve Act govern transactions between banks and their affiliates. Section
   23A regulates loans to and investments in affiliates of an insured bank by restricting the amount of such loans and
   investments and by requiring that the loans meet certain standards as to collateral. Section 23B requires that the
   terms of affiliate transactions be comparable to terms of similar non-affiliate transactions. Section 23B also
   imposes restrictions on the extent to which a bank may, as a fiduciary, purchase securities and other assets from
   an affiliate; on the purchase of securities where an affiliate is the principal underwriter; and on the agreement to
   and advertising of a bank’s responsibility for the obligations of its affiliates.




                                                            12
The FDIC can employ a range of enforcement actions, progressing to termination of insurance,
in the event that an ILC violates a condition of deposit insurance. Specifically, under the FDI
Act, the FDIC can initiate an insurance termination proceeding after a determination by the
FDIC that the institution, its directors, or trustees have violated an applicable legal requirement,
a condition imposed in connection with an application by the depository institution, or a written
agreement between the institution and the FDIC.

We confirmed with the FDIC’s Legal Division and DSC officials that the FDIC could take
enforcement action for a violation of a condition associated with the granting of deposit
insurance, solely on the basis of that condition, regardless of whether a safety and soundness risk
was identified. Legal Division and DSC officials cited various subsections of Section 8 of the
FDI Act that list “violation of a condition” as one of the predicates for pursuit of enforcement
action. No additional findings are required to justify enforcement action, and the FDIC can
pursue a violation of a condition without consideration of its safety and soundness or other
consequences. According to the Legal Division and DSC officials, the Corporation would
expect to prevail in an enforcement action based upon a willful violation of a deposit insurance
condition without consideration of any safety and soundness consequences.

Imposing Conditions on the Parent Company: Most of the conditions presented in Table 4
were imposed on the ILCs. However, the FDIC has stated that it can use its authority to approve
applications for deposit insurance as a means of requiring an ILC holding company to adopt
commitments, operations, and procedures that enhance the safety and soundness of the ILC. In
this regard, DSC guidance on prudential conditions notes that applicants should be made aware
that “…in addition to nonstandard conditions, liquidity and/or capital maintenance agreements
with proposed institutions’ parent companies may be necessary in certain circumstances.”

GAO’s September 2005 report (GAO-05-621) states that, according to FDIC officials, the
approval of insurance could be conditioned upon the holding company’s (parent company)
adhering to prescribed capital levels, adopting a capital maintenance plan for the ILC, and/or
other measures such as submitting reports about affiliates to the FDIC. However, according to
the GAO report, FDIC officials were unable to provide specific cases in which the FDIC had
imposed conditions on an application for insurance that required the holding company to provide
specific reports of operations, financial condition, and systems of monitoring risk at the holding
company and affiliates.

Our review of 18 ILC Orders for deposit insurance identified two notable conditions7 that the
FDIC had imposed on ILCs and their parent companies.

•   For one ILC, the FDIC imposed a condition requiring that, prior to the effective date of
    insurance, the ILC’s parent and the proposed ILC enter into a Capital Maintenance and
    Liquidity Agreement (CMLA) acceptable to the FDIC. According to DSC, a CMLA is a

7
 We also noted that the deposit insurance Orders for three ILCs (UBS Bank USA, Toyota Financial Savings Bank,
and Volkswagen Bank USA) required the parent company to maintain in the United States a designated agent to
accept service on the parent’s behalf, including service of any legal process. The UBS Order also required the
parent to consent and submit to United States jurisdiction relating to the administration and enforcement of any
banking law.


                                                       13
    non-public and situation-specific agreement that ensures a parent company will maintain the
    capital and liquidity of its subsidiary bank (the ILC). The FDIC, the financial institution, and
    the parent company are parties to a CMLA.

•   For another ILC, the FDIC imposed a condition requiring the parent company to provide the
    FDIC with a binding written commitment permitting examination of any affiliate of the bank
    to the extent to which the FDIC determines necessary to disclose fully: (1) the relationship
    between the bank and any such affiliate and (2) the effect of such relationship on the bank.

GAO’s report highlighted limitations in the FDIC’s authority to supervise ILC parents and
affiliates compared to consolidated supervisors of bank and thrift holding companies. Also,
GAO concluded that those limitations are most significant with respect to existing ILC holding
companies that are not subject to conditions or written agreements made in connection with the
ILC’s application for insurance and whose ILCs are not currently financially troubled or exposed
to risks from relationships with their affiliates.

Time-Specific and Ongoing Conditions Associated with Business Plans: The FDIC can
monitor proposed changes to an ILC’s line of business by imposing conditions. The FDIC’s
standard business plan condition expires after the first 3 years of an institution’s operations,
referred to as the de novo period. The FDIC can also impose nonstandard, ongoing conditions
that require the institution to notify or obtain the FDIC’s approval of future business plan
changes beyond the 3-year period. Our review of the 18 ILC Orders showed that the FDIC
imposed standard (3-year) conditions associated with business plans for 11 ILCs and imposed
similar ongoing conditions related to business plans for 4 ILCs. The FDIC did not impose
conditions associated with business plans for three ILCs in our sample. DSC officials noted that
these three Orders pre-date the FDIC’s requirement for a business plan condition.

We confirmed that the Corporation could pursue enforcement actions should an ILC fail to notify
the FDIC before changing its business plan, based solely on the violation of such a condition.
FDIC officials indicated, however, that it is improbable that an ILC would take such a course of
action. Instead, based on the FDIC’s experience, the ILC would discuss the proposed business
plan with the FDIC and obtain the FDIC’s non-objection before implementing the business plan
change.

The FDIC evaluates proposed business plan changes to ensure the change does not present a
safety and soundness risk. The FDIC can deny an ILC’s request for a business plan change as
long as there is a reasonable basis for challenging the change. FDIC officials stated that a
reasonable basis would include a safety and soundness issue or a violation of law or regulation.
FDIC officials noted that there generally has to be a reasonable basis for the Corporation to deny
a proposed business plan change, otherwise the Corporation could be viewed as being arbitrary
and capricious, and the bank could challenge the FDIC’s decision in a court of law.

We confirmed with FDIC Legal Division officials that the wording of conditions associated with
business plans dictates the level of influence that the FDIC may exercise in reviewing and
approving business plan changes. The FDIC’s standard business plan condition follows:




                                                14
          That the institution shall operate within the parameters of the business plan submitted to
          the FDIC. During the first three years of operations, the bank shall notify the Regional
          Director and its primary Federal regulator, of any proposed major deviation or material
          change from the submitted plan 60 days before consummation of the change.

We noted that most of the ongoing conditions required the ILC to notify the FDIC of proposed
business plan changes, and one condition required the ILC to notify and seek FDIC approval
before making material business plan changes. Table 5 provides examples of ongoing business
plan conditions that the FDIC imposed.

Table 5: Examples of Ongoing Conditions Associated with Business Plans
Business Plan Condition Language From Orders of Deposit Insurance
One ILC in OIG sample
The bank shall operate within the parameters of the Business Plan submitted as part of the application for Federal
deposit insurance and as updated. On an annual basis, the bank will submit updates to the Business Plan to the
Regional Director for acceptance/approval. The Business Plan shall be based on prudent operating policies, shall
include current and pro forma financial statements and other relevant exhibits, shall prescribe adequate capital
maintenance standards relative to the bank’s risk profile, and shall incorporate reasonable risk limits with respect to
adversely classified assets (including non-investment grade bonds), industry and individual issuer concentrations, and
other relevant risk factors. The bank shall notify the Regional Director of any proposed major deviations or material
change from the business plan 30 days before consummating the change. In addition, the bank shall notify the
Regional Director within 15 days if any risk limits specified within the Business Plan are exceeded.
Three ILCs in OIG sample
The bank will operate within the parameters of the business plan submitted as part of the application for Federal deposit
insurance, including capital adequacy measures therein. On an annual basis, the bank will submit updates to the
business plan to the Regional Director. The bank shall notify the Regional Director of any proposed major deviation or
material change from the business plan 60 days before consummation of the change.
Source: OIG review of deposit insurance Orders.


An FDIC Legal Division official noted that if the condition requires prior notice before any
material change in the business plan, and such notice is given, the institution can implement a
change in its business plan without violating the condition. If, on the other hand, the condition
requires prior approval of a change, and such approval is not secured, any implementation of the
proposed change would violate the condition.

We suggested to DSC that the FDIC could strengthen its ongoing conditions associated with
business plans by explicitly stating, within the condition, the FDIC’s rights to approve ILC
changes to business plans. DSC officials noted that, regardless of the wording of a condition, if a
business plan change presented a safety and soundness concern, the FDIC would identify that
concern during its supervisory activities and could pursue enforcement actions, if necessary,
through the examination process. Nevertheless, in our view, explicitly requiring the institution to
obtain FDIC approval to major or material business plan changes would be a more proactive and
efficient approach as opposed to questioning a business change during a bank examination after
the institution has implemented the change.

Prudential Conditions Imposed on ILC Applicants: For the 11 ILCs reviewed, we found
1 instance in which the FDIC imposed a prudential condition on an ILC. DSC issued RDM
2004-011, effective March 12, 2004, which identified prudential (nonstandard) conditions that


                                                          15
might be considered in processing applications that present unique characteristics or involve an
institution that is to be owned by or significantly involved in transactions with commercial or
financial companies, should the risk characteristics of a given proposal warrant such action.

According to DSC officials, prudential conditions evolved from years of ILC supervision by the
FDIC and Utah’s Department of Financial Institutions (DFI). In the early 1990s, the regulators
discovered that some ILCs operated with minimal quarters, books, records, and management
onsite in Utah. The FDIC and DFI held meetings with ILC industry representatives and
developed conditions for state charter and federal deposit insurance Orders to address these
concerns.

The FDIC issued RDM 2004-011 with examples of prudential conditions that had been imposed
in other deposit insurance Orders to address corporate relationships, management authority and
independence, and corporate and operating records. Appendix III presents the examples of
prudential conditions referenced in RDM 2004-011 that had been imposed in prior approval
actions. Additionally, the FDIC incorporated a discussion of prudential conditions into DSC’s
CMP Manual and DSC’s instructions on preparing an ROI. Specifically, the instructions state
that in the case of an ILC charter, examiners must be particularly cautious in reviewing
management competencies, corporate structures and relationships, and the underlying business
plans.

DSC officials told us that, in determining the need to impose prudential conditions in approving
deposit insurance applications for ILCs, conditions are derived from the elements of a proposal
that raise supervisory concern or otherwise warrant attention. Among the primary considerations
for DSC are the nature and scope of the business plan, the corporate structure within which the
institution will operate, and the risk inherent in the overall proposal. DSC officials noted that the
Corporation imposes conditions on a case-by-case basis as it deems appropriate based on the
risks presented by an applicant’s proposal.

We reviewed all (11) ILC Orders for deposit insurance issued since the March 2004 effective
date of RDM 2004-011 through October 2005 and noted that the FDIC imposed 1 prudential
condition in 1 of the 11 ILC Orders as shown in Table 6 below. Appendix VI lists the other
standard and nonstandard conditions imposed on the 11 applicants.

Table 6: Prudential Nonstandard Conditions
                                                                                             Number of
 Prudential Nonstandard Conditions                                                             Times
                                                                                              Imposed
    Retention of a Majority of Independent Directors                                            1
    Retention of Independent, Knowledgeable and Experienced Executive Officers                  0
    Maintenance of a Separate Current Written Business Plan                                     0
    Performance of Bank Operations Independent of Affiliated Entities                           0
    Maintenance of Separate Accounting and Other Business Records                               0
    Utilization of Written Contracts to Govern Shared Personnel and Resource Arrangements       0
Source: OIG analysis of Orders for deposit insurance and excerpts from RDM 2004-011.




                                                           16
We also reviewed the Orders for deposit insurance and state orders for the 11 applicants to
identify state-imposed conditions and other FDIC-imposed nonstandard conditions that were
similar to prudential conditions.

State-Imposed Conditions: For the 11 ILC Orders mentioned above, the state of Utah chartered
8 ILCs, Nevada chartered 2 ILCs, and California chartered 1 ILC. We found that Utah imposed
conditions similar to prudential conditions in all eight of its chartered ILCs. Specifically, we
identified 6 state conditions that were collectively used 18 times. Although we identified
similarities between the Utah conditions and prudential conditions, the state conditions were not
as strong or as broad as the FDIC prudential conditions detailed in RDM 2004-011.
Nevertheless, the Utah DFI consistently imposed conditions on the ILCs that address the
authority and independence of the bank, corporate relationships, and operating records. The
results of our review are detailed in Appendix VII.

State conditions provide some level of control, but they are not without limitation in regard to the
FDIC’s authority or the purpose and timeframe of the conditions. For example, the FDIC does
not have the authority to enforce violations of state-imposed conditions. Further, the state could
relax or eliminate conditions without the FDIC’s approval. Finally, the states and the FDIC
impose conditions associated with different processes. States impose conditions associated with
the bank charter, whereas the FDIC’s prudential conditions are associated with granting deposit
insurance.

The applications for two ILCs were filed in Nevada and presented issues related to the ILCs’
autonomy from the parent companies. The FDIC considered these issues, but neither the FDIC
nor Nevada imposed conditions to address these issues:

•   In one case, we found that the Chartering State Authority waived its requirement for key ILC
    management to be residents of Nevada. However, DSC’s San Francisco Regional Office
    recognized that the applicant’s proposal was inconsistent with the region’s standards for ILCs
    regarding (1) board independence, (2) board residency in the chartering state, (3) bank
    records being maintained in the ILC’s main office, and (4) key management residency in the
    chartering state. The applicant resubmitted its proposal and agreed to provide an independent
    board with two directors residing in Nevada, relocate bank records to the ILC’s main office,
    and establish residency of three senior officers within a year of approval for deposit
    insurance. DSC examiners verified the applicant’s proposed changes.

•   While processing the application for the second Nevada ILC, the Dallas Regional Office
    recognized that the applicant’s proposal did not provide for board members or executive
    officers of the ILC to reside in Nevada. The Nevada Chartering Authority waived the
    residency requirement for this ILC. In coordination with RMAS, regional officials
    determined that there was no need to impose board member or executive officer residency
    requirements. In addition, RMAS officials determined that the ILC’s proposed shared-
    management structure with its parent did not present undue risk to the ILC. We also noted
    that the applicant proposed a sharing arrangement of affiliate employees and maintaining the
    ILC’s books and records at the affiliate’s location.




                                                17
FDIC Nonstandard Conditions That Resemble Prudential Conditions: We reviewed all of
the FDIC nonstandard conditions imposed on the 11 applicants to identify conditions that
resembled prudential conditions illustrated within RDM 2004-011 or that addressed the ILC’s
independence and separateness from its parent. We identified 8 conditions that were collectively
used 13 times in 8 Orders that to some extent addressed the authority and independence of the
bank, corporate relationships, and transactions with affiliates. Of the eight conditions, five
resembled prudential conditions. The results of our review are detailed in Appendix VIII.

The FDIC’s Views on the Need for Conditions: During our evaluation, we interviewed several
DSC and Legal Division officials about the importance of, and need for, conditions associated
with the granting of deposit insurance. One DSC official indicated that conditions principally
provided clarity to applicants and new depository institutions. FDIC Legal Division officials
indicated that conditions were legally binding on new institutions and helped to ensure that new
institutions comply with the statutory factors. DSC RMAS officials indicated that conditions are
principally intended to notify the applicant of the FDIC’s operational expectations; however,
examinations and offsite monitoring activities are the primary means through which the FDIC
ensures the safety and soundness of ILCs.

Several DSC officials questioned the need for conditions on ILCs that are similar to conditions
imposed by the Chartering State Authority. DSC officials indicated that such conditions would
be duplicative. Legal Division representatives noted that the FDIC and the states impose
conditions associated with different processes; FDIC-imposed conditions relate to obtaining
deposit insurance, while state-imposed conditions relate to the bank charter. Moreover, the
Legal Division confirmed that the FDIC does not have the authority to enforce a state-imposed
condition.

One DSC official indicated that the FDIC would generally not impose a condition if a deposit
insurance application favorably addressed the statutory factor or area of supervisory concern to
which the condition pertained. To illustrate, if an application indicates that the proposed bank
will appoint a board of directors composed of individuals who are independent of the parent
company, the FDIC may not find it necessary to impose a condition on the bank related to an
independent board. In our opinion, it would be prudent to impose a condition in such cases to
ensure that the new institution continued to comply with the area of supervisory concern.

The FDIC has historically maintained that imposing conditions associated with the granting of
deposit insurance is an effective means to preserve an ILC’s autonomy and insulate an ILC from
its parent holding company. As discussed earlier, we received comments from DSC and the
Legal Division that were not always consistent with the FDIC’s historical position on conditions.
Accordingly, we concluded that clarifying policy or guidance is needed to communicate the
FDIC’s views on the purpose for and importance of conditions associated with deposit insurance
applications.




                                               18
Recommendation

We recommend that the Acting Director, DSC:

2. Develop and issue clarifying policy or guidance regarding the need for, and importance of,
   conditions associated with deposit insurance applications. Such policy or guidance should
   address:

   •   the relative importance of conditions in ensuring the safe and sound operation of financial
       institutions, including ILCs;
   •   policy regarding circumstances wherein conditions should be imposed;
   •   definitions of conditions and types of conditions;
   •   discussion of the FDIC’s ability to enforce violations of condition;
   •   DSC’s position regarding imposing conditions that are similar in nature to state-imposed
       conditions; and
   •   DSC’s position on imposing conditions when an application addresses a supervisory
       concern.

Obtaining the Applicant’s Agreement in Writing to Nonstandard Conditions

The FDIC did not always have evidence in its files that the Corporation had obtained the
applicant’s agreement in writing to nonstandard conditions included in the deposit insurance
Order. The FDIC’s delegations of authority relating to deposit insurance applications and the
CMP Manual provide that the applicant must agree in writing to any condition imposed upon it
other than the standard conditions enumerated in the delegations of authority. In addition, the
application for federal deposit insurance includes a statement that the FDIC may impose standard
conditions when approving a filing whether or not the applicant has agreed to their inclusion, but
the FDIC may also request applicants to agree in writing to nonstandard conditions. If the
applicant declines to commit to the nonstandard conditions, the regional office cannot act on the
application under delegated authority. The FDIC Board retained the authority to act on
applications for which the applicant does not agree in writing to nonstandard conditions.

As shown in Appendix IV, for 4 of the 10 ILC Orders for deposit insurance in our sample that
included nonstandard conditions, DSC did not have evidence in its files that the FDIC had
obtained the applicant’s agreement in writing to all nonstandard conditions that the FDIC
imposed. In three of the four cases, the applicant’s agreement in writing addressed some, but not
all, of the nonstandard conditions.

We provided the results of our review to DSC prior to the issuance of the draft of this report.
Following issuance of our draft report, DSC located additional information to partially address
some of the exceptions that we originally identified in our draft report. We adjusted the number
of exceptions from five to four and reflected DSC’s additional information in footnotes included
in Appendix IV. DSC officials noted that many of the requested records had been archived and
shipped offsite. However, the officials remained confident that the work was completed and
documented at the time.




                                               19
DSC officials also noted that although applicants do not have to agree in writing for conditions to
be effective and enforceable, the regional offices must obtain an applicant’s agreement to
nonstandard conditions in writing in order to exercise delegated authority. The officials added
that, based on their experience, such agreements are an effective means to ensure that an
applicant understands any nonstandard condition prior to the granting of deposit insurance. We
concluded that obtaining the applicant’s agreement in writing to nonstandard conditions would
help to ensure that the applicant has agreed to those conditions.

Confirming the Applicant’s Compliance with Conditions

DSC did not always have evidence in its files that the FDIC had confirmed that the applicant had
complied with, or had made arrangements to comply with, all conditions before issuing the
deposit insurance Order. The FDIC’s transmittal of an Order for deposit insurance contains a
requirement for the proposed financial institution to provide the DSC regional office satisfactory
evidence of the bank’s compliance with, or definite and certain arrangements to comply with, the
conditions stated in the Order. DSC furnishes the information provided by the proposed
financial institution to the FDIC’s Office of the Executive Secretary, which formally informs the
proposed financial institution of the effective date of federal deposit insurance. DSC officials
told us that before opening for business, a proposed insured ILC must:

•   certify that its board of directors has adopted a resolution approving the action of the
    prospective incorporators in preparing and presenting the company’s application for federal
    deposit insurance;
•   submit to the FDIC a copy of the ILC’s license or authorization to engage in the business of
    receiving deposits and copies of properly executed incorporation forms and the ILC’s
    Articles of Incorporation; and
•   provide evidence of compliance with, or arrangements to comply with, all conditions in the
    Order.

Appendix IV illustrates that for 7 of 12 ILC Orders that we reviewed, DSC files did not contain
documentation that the ILC had provided DSC with evidence of the ILC’s compliance with, or
definite and certain arrangements to comply with, all conditions in the Order. Specifically, in
two cases, DSC files did not contain documentation of the ILCs’ compliance with the conditions
in the Orders. In the remaining five cases, DSC files contained documentation addressing the
applicant’s compliance with some, but not all, of the conditions imposed in the deposit insurance
Order. We provided the results of our review to DSC prior to the issuance of the draft of this
report. Following issuance of our draft report, DSC located additional information to partially
address some of the exceptions that we originally identified in our draft report. We adjusted the
number of exceptions from nine to seven and reflected DSC’s additional information in footnotes
included in Appendix IV. DSC officials noted that many of the requested records had been
archived and shipped offsite. However, the officials remained confident that the work had been
completed and documented.

For the remaining five ILCs, DSC files contained documentation that the ILCs had submitted in
response to the FDIC’s request for evidence of compliance with the conditions in the Order. An
example of this documentation included a letter to the DSC Regional Director, listing the


                                                20
conditions and a statement regarding actions taken or planned by the ILC as evidence of
compliance with each of the conditions. The letter included as attachments the ILC’s board of
directors’ resolution, the ILC’s Articles of Incorporation, Chartering State Authority Certificate
of Authorization, proof of capitalization, and commitment letter to maintain Tier 1 capital of at
least 8 percent for the first 3 years. Satisfactory evidence of the bank’s compliance with, or
definite and certain arrangements to comply with, the conditions stated in the Order, provides
positive confirmation that the applicant has addressed the FDIC’s concerns or requirements for
obtaining deposit insurance.

Recommendations

We recommend that the Acting Director, DSC:

3. Emphasize to regional and field officials the need to obtain and document the applicant’s
   written agreement to nonstandard conditions.

4. Emphasize to regional and field officials the need to document evidence that the ILC has
   complied with all conditions stated in the deposit insurance Order.


Evaluating the Probable Impact of an Applicant’s Proposed Business Line on Existing
Banks in the Community

The FDIC should clarify its expectations and guidance for examiners’ evaluation of the probable
impact of an applicant’s proposed business line on existing banks and businesses in the
community. One of the statutory factors, Convenience and Needs of the Community to be
Served, discusses the deposit and credit needs of the community to be served and the nature and
extent of the opportunity available to the applicant in that location. DSC’s guidance for
investigating this factor provides that an unbiased conclusion--in connection with ascertaining
whether or not the services rendered by existing depository institutions are satisfactory and
whether or not such institutions are meeting the legitimate credit needs of the community--
requires impartial consideration of the opinions of the organizers of the applicant as well as those
of the managers of existing institutions. The guidance also states that it is sometimes necessary
to solicit the views of representative business and professional persons in the community,
together with those of citizens of modest means. The RM Manual indicates that an assessment
of Convenience and Needs of the Community to be Served should include:

(1) the solicited views/opinions of representative business and professional individuals in
    existing financial institutions as well as other businesses in the community to be served by
    the applicant, and

(2) the basis for information presented with respect to the probable impact of the proposed
    business line on existing financial institutions in the community.




                                                21
ROIs were available for 11 of the 12 ILCs in our sample.8 In those 11 cases, we found that
8 reports identified the views and opinions of business and professional individuals in existing
financial institutions and that 1 report contained information regarding the identified views and
opinions of individuals in other businesses. Although all 11 ROIs contained information with
respect to the probable impact of the ILC on existing financial institutions, the ROIs did not
always adequately explain how examiners reached their conclusions or the basis for their
conclusions. The FDIC could also better clarify whether the investigation of this statutory factor
should include an external focus of the applicant’s impact on existing banks and business and
external risks to the Deposit Insurance Fund.

Views of Professionals in Existing Banks: The RM Manual provides that examiners should
assess the competitive dynamics of the proposed market and how the institution will compete for
a market share. Officials of area depository institutions should be contacted during the
investigation and given an opportunity to express their opinions on the proposal. Any formal
objections to the proposal should be investigated, and comments relative to discussions with the
objector(s) should be set forth in the ROI. According to DSC guidance, the probable competitive
effects of a new institution proposal should be fully weighed by the examiner.

For the 11 ILCs in our sample for which ROIs were available, we noted the following in regard
to obtaining the views of professionals in existing financial institutions:

•   In three cases, the examiners interviewed officers of three local ILCs.
•   In two cases, the examiners interviewed officers of four local ILCs.
•   In one case, the examiner interviewed officers from two ILCs and one non-ILC local bank.
•   In one case, the examiner interviewed officers from 13 ILCs.
•   In the remaining case, the examiner interviewed two presidents of two Salt Lake City, Utah,
    ILCs. However, the proposed ILC was seeking a Nevada state charter with an accompanying
    Las Vegas, Nevada, location.

The ROIs for the remaining three ILCs did not indicate whether examiners conducting the
investigations sought the views and opinions of business and professional individuals in existing
financial institutions.

Views of Individuals in Non-Banking Businesses: DSC’s guidance states that it is important
that the examiner not adopt the viewpoint of depository institutions located in the community to
the exclusion of other, equally persuasive viewpoints. It is sometimes necessary to solicit the
views of representative business and professional persons in the community, together with those
of citizens of more modest means. DSC’s guidance also provides that the results of canvasses
and surveys of local individual or business persons should be set forth in the ROI in order to
assist in evaluating support for the proposed institution, the adequacy of present depository
institution facilities, whether the legitimate banking needs of the community are being met,
whether and to what extent the new facility would be used, and the knowledge these persons
have of the “proponents.”

8
  The SOI for one ILC for which an ROI was not available did not indicate that examiners had interviewed
representatives from existing banks or businesses.


                                                       22
For the 11 ILCs in our sample for which ROIs were available, we identified one case in which
the ROI indicated that the views and opinions of individuals in other businesses had been
obtained. Specifically, the applicant retained the services of a professional consultant to conduct
six focus group meetings to determine the feasibility of the applicant’s business line, not
necessarily the impact that the proposed business line may have on other businesses.

Basis for Examiners’ ROI Conclusions: Although the 11 ROIs contained information with
respect to the probable impact of the proposed institution on existing financial institutions in the
community, the ROIs did not always adequately explain the basis for the examiners’
conclusions. For example, the ROIs did not always indicate whether examiners’ conclusions
were based on an independent evaluation of community views or a reliance on the applicant’s
statements in the deposit insurance application. Appendix IX illustrates the ROI comments
related to the probable impact of each proposed ILC’s business line on existing financial
institutions in the community.

Internal or External Focus of Investigation: The FDIC could do more to clarify its
expectations regarding investigations. The RM Manual does not clearly indicate whether an
investigation of the impact that an applicant may have on the community should have (1) an
internal focus on the applicant’s safety and soundness and ability to succeed, (2) an external
focus on the impact that a proposed applicant could have on existing banks and businesses, or
(3) both an internal and external focus.

DSC guidance states that while the number of depository institutions operating in the city or area
to be served is important in determining whether the addition of a new institution may result in
an over-banked condition, examiners should also consider possible pro-competitive
consequences from the new institution’s proposal, such as increased customer services and
banking options to area residents. Therefore, it is necessary to furnish complete, factual data
with respect to the probable impact of the proposal on existing financial institutions in the
community.

DSC case managers in San Francisco and examiners-in-charge in Salt Lake City told us that their
focus in the area of competition is directed toward the impact that existing institutions might
have on the proposed institution and whether the addition of a new bank in the community could
result in an “over-banked” condition and affect the ability of the applicant to be successful.

We discussed the matter of assessing the probable impact of a proposed financial institution on
existing banks with FDIC Legal Division representatives who indicated that the deposit
insurance investigation should have both an internal and external focus in regard to the
applicant’s impact on existing institutions. Further, the Risk Presented to the Insurance Fund
statutory factor states that the FDIC must be assured that the proposed institution does not
present an undue risk to the Deposit Insurance Fund. The Legal Division representatives also
indicated that they view the impact of a new applicant as being more related to the Risk
Presented to the Insurance Fund statutory factor rather than the Convenience and Needs of the
Community to be Served factor. Accordingly, we reviewed the Risk Presented to the Insurance
Fund section of the ROIs for the 12 ILCs in our sample and found no comments regarding the
probable impact of the proposed line of business on existing financial institutions in the



                                                 23
community. However, DSC’s guidance more clearly addresses the area of an applicant’s impact
on existing financial institutions within the Convenience and Needs of the Community to be
Served statutory factor rather than the Risk Presented to the Insurance Fund statutory factor.

In our view, this issue may take on greater significance for larger institutions, including ILCs
that mix some amount of banking and commerce activities that could have an impact on existing
banking and non-banking businesses and could present external risks to the Deposit Insurance
Fund. DSC should (1) emphasize that examiners should be documenting the basis for their
conclusions and (2) clarify corporate expectations for examiners’ evaluation of an applicant’s
probable impact on existing banks and businesses and the extent to which such evaluations
should have an internal and external focus. Such clarifications would help to ensure that
examiners adequately investigate an applicant’s proposed impact on the community to be served
and consider the internal and external risks that an applicant may pose to the Deposit Insurance
Fund.

Recommendation

We recommend that the Acting Director, DSC:

5. Issue guidance to (a) clarify corporate expectations for deposit insurance investigations in
   reviewing the statutory factors Convenience and Needs of the Community to be Served and
   Risk Presented to the Insurance Fund in evaluating the possible impact of an applicant’s
   proposed line of business on existing financial institutions in the community and the Deposit
   Insurance Fund, and (b) emphasize that examiners should document the basis for their
   conclusions in the Convenience and Needs of the Community to be Served area in the ROI.


THE FDIC’S MONITORING OF ILC BUSINESS OPERATIONS

Following the approval of an ILC deposit insurance application, the FDIC monitors ILC business
operations through the FDIC’s onsite supervisory examination and offsite supervisory programs.

Onsite Supervisory Efforts

DSC performs onsite monitoring and verifies the status of FDIC-imposed conditions during
risk-focused visitations and examinations. In addition, the FDIC enhances onsite supervision
through the Large Bank Program and the Dedicated Examiner Program.

Safety and Soundness Examinations: At a minimum, and as discussed in the RM Manual, a
full-scope examination is conducted within the first 12 months of financial institution operations.
The RM Manual also provides that, for newly-chartered institutions, examiners will conduct
limited-scope examinations (visitations) within the first 6 months of operations. However, in
November 2005, DSC issued RDM 2005-044, Revisions to Policies for Limited-Scope
Examination and Visitation Requirements, which eliminated the visitation requirement for
newly-insured institutions. Although RDM 2005-044 eliminated the 6-month visitation




                                                24
requirement, DSC officials in San Francisco told us that 6-month visitations would continue to
be required for all newly-chartered institutions, including ILCs, in the San Francisco region.

Subsequent to the first examination and through the third year of operation, at least one
examination is to be performed each year. Subsequent to the initial full-scope examination,
examinations may be alternated with the state supervisory authority if circumstances permit.
Nevertheless, according to DSC officials, examination schedules will be adjusted in those cases
warranting more frequent onsite reviews.

As discussed later in this report, DSC examiners are expected to specifically address an ILC’s
compliance with conditions associated with the granting of deposit insurance and evaluate ILC
business plans and any changes in business plans during examinations.

Large State Nonmember Bank Onsite Supervision (Large Bank) Program: The Large Bank
Program provides an onsite presence at depository institutions through visitations and targeted
reviews throughout the year. DSC implemented the Large Bank Program in 2000 and assigned
responsibility to the Regional Directors or their designees to determine which institutions
qualified for the program, based on a threshold of banks having total assets of $10 billion or
more. In addition to the size of the bank, DSC also considered the complexity and risk profile in
determining the institutions that qualified for the Large Bank Program. In February 2006, DSC
updated its risk monitoring procedures for large banks and issued RDM 2006-002, Large Insured
Depository Institution Risk Monitoring Program.

One of the ILCs in our sample is included in the Large Bank Program and is subject to
continuous supervision and oversight. We determined that DSC and Utah examiners conducted
three targeted reviews of the ILC for the 2004 and 2005 examination cycles, produced separate
reports for the first and second reviews in each cycle, and issued Reports of Examination (ROE)
in 2004 and 2005 incorporating the results of the third targeted review. Three targeted reviews
are scheduled for this ILC in 2006.

Dedicated Examiner Program: The FDIC established the Dedicated Examiner Program in
2002 to provide the Corporation access to the eight largest insured depository institutions in the
United States. The FDIC appointed eight dedicated examiners to monitor operations at these
institutions by working closely with the federal financial regulators who are the primary
supervisors of those institutions. DSC issued RDM 03-017, Dedicated Examiner Program
Guidelines, on May 2, 2003. The RDM calls for dedicated examiners to prepare quarterly and
annual written analytical reports to include, among other things, an in-depth discussion of major
business lines and associated risks.

In 2005, the FDIC added two ILCs to this program based on each ILC’s size and complexity and
the FDIC’s desire to have more continuous onsite supervision at these ILCs. One of the two
ILCs was included in our sample. This ILC is also included in the Large Bank Program. We
reviewed the case manager’s quarterly monitoring report for this ILC which indicated that FDIC
representatives held periodic meetings with the Swiss regulatory authority regarding this ILC.




                                                25
Offsite Monitoring Efforts

The FDIC conducts a variety of offsite activities. Formal offsite monitoring of the ILCs is
performed through the FDIC’s Large Insured Depository Institutions (LIDI) Program and the
Offsite Review Program.

LIDI Program: The FDIC established the LIDI Program to provide analyses of risk profiles of
companies with total consolidated assets of $10 billion or more. In January 2004, DSC issued
RDM 2003-060, Large Insured Depository Institutions (LIDI) Process Redesign, which
expanded the scope of the program to include certain ILCs that did not otherwise meet the
existing LIDI Program criteria. Case managers prepare quarterly written reports that document
the analysis of the risk profile and supervisory strategies of institutions in the LIDI program. We
reviewed case manager files for the five ILCs in our sample that were included in the LIDI
Program and determined that quarterly reports had been completed for each ILC.

Offsite Review Program: DSC designed the Offsite Review Program to identify emerging
supervisory concerns and potential problems so that supervisory strategies can be adjusted
appropriately. The Statistical CAMELS Offsite Rating system and the Growth Monitoring
System are offsite review programs based on statistical models that use Call Report9 data to
monitor the condition of financial institutions and assist in prioritizing onsite safety and
soundness examination efforts. After Call Report data is updated each quarter, an Offsite
Review List (ORL) is generated. The CMP Manual requires either case managers or field
supervisors to perform Offsite Reviews quarterly for each bank that appears on the ORL. DSC
regional management is responsible for implementing procedures to ensure that Offsite Review
findings are factored into examination schedules and other supervisory activities. DSC
completed offsite review reports for 3 of the 12 ILC applications we reviewed.

Results of OIG Review of FDIC ILC Monitoring Efforts

In our review of 11 of the 12 sampled ILC applications,10 DSC files and reports generally
contained evidence of examiners’ and case managers’ visitations, examinations, and offsite
monitoring of conditions and business plans. Although the FDIC generally followed applicable
procedures in providing onsite and offsite monitoring of ILC conditions and operations, the
process could be strengthened in relation to addressing an ILC’s compliance with conditions in
visitation and examination reports. Table 7 on the next page summarizes the results of our
review of the FDIC’s monitoring of conditions imposed in the Orders for deposit insurance. We
discuss the FDIC’s monitoring of business plans and the extent to which visitation and
examination reports address conditions in the next section of this report entitled, Monitoring
Business Plan Conditions. Further, Appendix X presents the detailed results of our review of
onsite monitoring for the individual ILCs in our sample.

9
  All national banks, state member banks, and insured state nonmember banks are required to file a quarterly
consolidated Call Report. Consolidated Call Reports are a widely used source of financial data regarding a bank’s
condition and the results of its operations. The information is extensively used by bank regulatory agencies in their
daily offsite bank monitoring activities.
10
   The Order for 1 of the 12 ILCs in our sample was approved in August 2005. The 6-month visitation had not yet
been completed at the time of our field work.


                                                         26
Table 7: Results of OIG Review of FDIC Monitoring Activities at Sampled ILCs
Monitoring Activities                                                                 Number of Cases Where We Saw
                                                                                         Evidence of Monitoring
Onsite monitoring
6-month visitation reports that addressed conditions.                                                   9 of 11
Examination reports that addressed conditions.
     First year of operations                                                                       6 of 11
     Second year of operations                                                                      4 of 7a
     Third year of operations                                                                       0 of 5b
Large State Nonmember Bank Onsite Supervision (Large Bank) Program                            One ILC in program
Dedicated Examiner Program                                                                    One ILC in program
Offsite monitoring
Large Insured Depository Institutions Program                                                             5
Offsite Review Program                                                                                    3
Source: OIG analysis of field and regional office ILC files.
a
  Only seven ILCs in our sample had been in business long enough to require second-year examinations.
b
  Only five ILCs in our sample had been in business long enough to require third-year examinations.


Monitoring Business Plan Conditions

DSC files and reports generally contained evidence that the FDIC monitored 3-year and ongoing
business plan conditions and evaluated ILC-proposed changes to business plans. As discussed
earlier in this report, Orders approving deposit insurance include a business plan condition that
requires the institution to notify the FDIC in advance of a material change or significant
deviation from the established business plan. In most cases, the condition covers the first 3 years
of ILC operations; however, in some cases, the condition will extend beyond 3 years. During the
term of the condition and after its expiration, the FDIC monitors an institution’s implementation
of the established business plan through onsite and offsite supervisory processes. These
processes also enable the FDIC to identify any change in the established plan.

The RM Manual states that, during the course of an examination, examiners should review and
evaluate current business plans and any changes to a business plan since the previous
examination. The guidance further states that business plans, in most instances, should be in
written form, and the depth and detail of written plans may properly vary, depending on the
nature, scope, and complexity of the financial institution’s operations. A financial institution’s
business plan may also be contained in the institution’s operating and ongoing budget, strategic
plan, or profit plan. The RM Manual also requires that examiners (1) determine whether a
financial institution has a profit plan or budget for the current and/or the next operating year and
(2) evaluate the adequacy of management’s budget and other earnings analysis reports at each
examination.

DSC had prepared visitation reports and ROEs for 11 of the 12 ILCs in our sample. Each
visitation report and ROE issued during the first 3 years of operations contained comments either
on the ILCs’ business plans or on a combination of business plans, budgets, and/or strategic
plans. For example, one visitation report stated, “The revised business plan appears



                                                             27
conservative, provides for a number of new management positions to oversee the bank’s
operations, and projects profitability by the end of the third year of operation, consistent with the
original application.” One of the ROEs provided information about the ILC’s plan to implement
a new products initiative that will result in additional risk and added that the bank’s strategic
planning and budgeting process is strong and that the budget contains financial projections to
5 years with estimated launch dates for future products.

Our review of the 34 visitation reports and ROEs issued on the 11 ILCs disclosed that during the
first 3 years of operations:

•   30 of the 34 reports included a discussion of the ILCs’ business plans, and 25 of the
    30 reports contained comments addressing the business plan submitted with the application
    for deposit insurance;
•   17 of the 34 reports discussed the ILCs’ budgets; and
•   19 of the 34 reports discussed the ILCs’ strategic plans.

Additionally, we reviewed the 12 ROEs for the 4 banks in our sample that had operations beyond
the de novo period. Orders for deposit insurance were issued to the respective ILCs from 1998
through 2000. We found that the ROEs issued after the first 3 years of operations for these four
ILCs generally addressed either the ILC’s business plan, strategic plan, or budget during all years
of the ILC’s operation.

Material Changes to Business Plans: DSC case managers told us that requests to materially
change a new bank’s business plan are submitted by means of a letter notice. As previously
discussed, the standard change-in-business-plan condition contained in Orders for deposit
insurance requires the financial institution to notify the FDIC of the proposed change 60 days
prior to consummation of the change. According to the case managers, the notifications usually
contain a narrative description of the proposed change, a description of management’s fitness to
facilitate the change, and pro forma projections that detail the financial effect of the change.
When reviewing a proposed material change in a business plan, FDIC staff uses many of the
same analytical tools and assessment standards that are applied to applications for deposit
insurance – the prospects that the proposal will be successful, that management has the requisite
training and experience to implement the change, and that there is sufficient financial support
(capital) for the proposal.

We reviewed ROEs for the nine ILCs for which the FDIC had imposed conditions related to
business plans and identified three ILCs that had proposed changes to their business plans.

•   One ROE reported that bank management presented to the FDIC proposed revisions to its
    original business plan. The revisions included accelerating the offering of personal
    mortgages and personal loans, offering credit cards, and not offering business checking
    accounts. The FDIC noted its non-objection to the business plan revisions, and the ILC
    implemented the business plan changes.




                                                 28
•   Another ROE explained that the bank had requested and received approval from the FDIC
    and the Chartering State Authority to add a line of credit for certain depositors and make the
    line of credit available to existing customers.

DSC officials told us that, to the extent necessary, controlling such business plan changes after
the expiration of a related condition is accomplished through a variety of means. While moral
suasion remains the primary informal corrective tool, the FDIC may pursue board resolutions or
memoranda of understanding, if appropriate. The FDIC also possesses broad enforcement
powers under the FDI Act to pursue formal enforcement actions, including cease and desist
orders, as circumstances warrant. However, the proposed business plan change has to present a
safety and soundness risk for the FDIC to take an enforcement action against a business plan
change.

Addressing Conditions in Visitation Reports and Reports of Examination

DSC did not always include the examiners’ assessment of the ILC’s compliance with
time-specific and ongoing conditions in examiner visitation reports and ROEs. DSC’s policies
require this assessment for examinations but not specifically for visitations. Regardless, this
information can be useful to case managers in their decision-making efforts to determine whether
an institution has complied with conditions imposed in the Order for deposit insurance. In that
regard, case managers are responsible for determining that all conditions contained in the Order
granting deposit insurance have been met and that field examiners monitor the institution’s
ongoing compliance with conditions through safety and soundness visitations and examinations.
DSC guidance provides that examiners include in the ROE an assessment of actions taken by the
ILC to address the conditions.

As a general rule, Orders for deposit insurance include some combination of time-specific and
ongoing conditions. Time-specific conditions are primarily focused on organizational matters
that must be achieved before the bank is insured. Ongoing conditions may be subject to a
defined period of time that varies, depending upon the facts and circumstances of the underlying
proposal. The DSC regional or area offices are responsible for verifying compliance with time-
specific conditions prior to the financial institution’s opening. Compliance with ongoing
conditions is primarily evaluated during onsite supervisory activities, including visitations and
examinations for the term the condition remains in force. Newly-chartered and insured
institutions are subjected to a more frequent regimen of onsite examinations or other supervisory
activities during the first 3 years of operation.

The RM Manual includes ROE instructions for addressing conditions and calls for a separate
ROE page entitled, “Compliance with Ongoing Conditions” for ORDERs Granting Approval for
Deposit Insurance. The instructions state that this page will be structured to include the
administrative action (condition) verbatim for the first examination, the examiner’s assessment
for each condition, and the steps taken by the financial institution to comply with the condition.
The instructions stipulate that the examiner’s assessment be documented in a factual manner
without a statement of opinion about the institution’s compliance with the condition(s).




                                                29
At subsequent examinations, provisions may be paraphrased or summarized, and the examiner is
instructed to address only those points of the action that the institution had not complied with at
the previous examination, requirements of a continuing nature, and those for which the time
limits had not previously expired. When all provisions have been satisfied and the only
remaining provisions are those of a continuing nature (no expiration date), remarks may be
limited to a short paragraph on the continuing requirements of the action.

We reviewed Orders for the 12 ILCs in our sample to determine the number of time-specific
conditions and ongoing conditions that examiners should review during visitations or first-,
second-, and third-year examinations as provided in DSC’s ROE instructions. Table 8 shows the
results for the 12 ILCs.

Table 8: Time-Specific and Ongoing Conditions for the 12 ILCs in Our Sample
                                              Total Number of
                                                                   Total Number of     Total Number of
     Industrial Loan Company                   Time-Specific      Ongoing Conditions     Conditions
                                                Conditions
Pitney Bowes Bank, Inc.                                 6                 1                   7
Wright Express Financial Services                       5                 1                   6
BMW Bank of North America                               7                 2                   9
First Electronic Bank                                   6                 3                   9
Volkswagen Bank USA                                     5                 5                  10
Exante Bank                                             5                 4                   9
UBS Bank USA                                            8                 6                  14
Goldman Sachs Bank USA                                  6                 5                  11
Beal Savings Bank                                       8                 3                  11
Toyota Financial Savings Bank                           9                 6                  15
Target Bank                                             6                 5                  11
Lehman Brothers Commercial Bank                         7                 2                   9
  Total                                                 78               43                 121
Source: OIG analysis of Orders for deposit insurance.


Based on DSC’s RM Manual instructions, the first-year ROE should address each of the
time-specific conditions identified for the above ILCs. The ongoing conditions should be
addressed in the first-, second-, and third-year ROEs. Table 9 on the next page presents the
results of our review, and Appendix X presents additional information by ILC.




                                                             30
Table 9: Results of OIG Review of ILC Visitation and Examination Reports
                                                      Report
                                                                         Report       Report Did Not
                                                    Specifically
              Visitation or                                             Addressed        Address
                                                    Addressed                                          Totals
           Examination Report                                           One or Two       Specific
                                                       Each
                                                                        Conditions      Conditions
                                                     Condition
Six-month Visitation
                                                          2                   7             2           11
(Applicable for 11 ILCs in our sample)
1st Year Report of Examination
                                                          4                   2             5           11
(Applicable for 11 ILCs in our sample)
2nd Year Report of Examination
                                                          1                   3             3            7
(Applicable for seven ILCs in our sample)
3rd Year Report of Examination
                                                          0                   0             5            5
(Applicable for five ILCs in our sample)
Source: OIG analysis of visitation reports, ROEs, and Orders for deposit insurance.


As shown, visitation reports and ROEs did not always document the status of conditions, as
required by the RM Manual. Accordingly, we concluded that DSC could improve reporting on
the status of conditions during the 6-month visitation and the first-, second-, and third-year
examinations. Without a clear and specific assessment in visitation reports and ROEs that
individual conditions continue to be met, case managers may not have the information that they
need to assess an ILC’s ongoing compliance with conditions associated with deposit insurance.

Recommendation

We recommend that the Acting Director, DSC:

6. Emphasize that examiners should address in 6-month visitation reports and ROEs for the
   first-, second-, and third-year examinations, each condition in the Order granting deposit
   insurance and the status of each condition to provide case managers sufficient information to
   determine an ILC’s adherence to the Order granting deposit insurance.


CORPORATION COMMENTS AND OIG EVALUATION

The Acting Director, DSC, provided a written response, dated July 17, 2006, to a draft of this
report. DSC’s response is presented in its entirety at Appendix XI. DSC concurred with each of
the six recommendations. By December 31, 2006 DSC agreed to:

•   issue instructions requiring the documentation of pre-filing meetings and inclusion of the
    results of those meetings in the application materials submitted to examiners responsible for
    conducting field investigations of deposit insurance applications;
•   emphasize the need to obtain and document the applicant’s agreement, in writing, to
    nonstandard conditions;
•   clarify DSC expectations for regional and field officials to document evidence that the ILC
    has complied with all conditions stated in the deposit insurance Order; and



                                                              31
•   re-emphasize and clarify how examiners should address conditions in deposit insurance
    approval Orders and the status of conditions in visitation reports and ROEs.

By June 30, 2007, DSC agreed to:

•   review DSC policies and guidance regarding the need for, and importance of, conditions
    associated with deposit insurance applications and develop clarifying guidance where needed
    to address the recommendation; and
•   clarify corporate expectations for reviewing the statutory factors Convenience and Needs of
    the Community to be Served and Risk Presented to the Insurance Fund in deposit insurance
    investigations and emphasize that examiners should document the basis for their conclusions
    in the Convenience and Needs of the Community to be Served area in the ROI.

DSC’s planned actions are responsive to the recommendations, and we consider all
recommendations resolved. However, these recommendations will remain open until we have
determined that agreed-to corrective actions have been completed and are effective.
Appendix XII presents a summary of DSC’s responses to our recommendations.




                                              32
                                                                                   APPENDIX I


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this review was to evaluate the FDIC’s process for (1) reviewing, investigating,
and approving ILC applications for deposit insurance and (2) monitoring business operations to
ensure adherence to conditions imposed on ILCs.

Our approach was to address the objective by posing to the FDIC a series of questions related to
the manner in which the Corporation reviews, investigates, and approves ILC deposit insurance
applications and the extent to which the Corporation oversees ILC operations to ensure that
conditions are being met and business plans are being followed. Additionally, we developed
application-related statistics on the universe of ILCs and reviewed a sample of 12 ILC
applications to evaluate the extent to which the FDIC imposes conditions, approves business
plans, and monitors ILC operations.

We performed our evaluation from December 2005 through May 2006 in accordance with
generally accepted government auditing standards. We performed field work in DSC’s
Washington Office; the San Francisco, Dallas, and Kansas City Regional Offices; and the Salt
Lake City and Phoenix Field Offices. In addition, we performed field work in the Legal
Division.

To accomplish our objective, we performed the following:

•   Reviewed applicable policies, procedures, and guidance related to the deposit insurance
    application process. Specifically, we reviewed:
           1. FDIC Statement of Policy on Applications for Deposit Insurance;
           2. Case Manager Procedures Manual, Applications Overview (Section 20) and
               Federal Deposit Insurance (Section 21);
           3. Risk Management Manual of Examination Policies, Applications (Section 12.1)
               and Report of Investigation Instructions (Section 18.1);
           4. Regional Director Memorandum (RDM) 2004-011, Imposition of Prudential
               Conditions in Approvals of Applications for Deposit Insurance;
           5. RDM 2004-012, Guidance Related to Parallel-Owned Banking Organizations;
           6. RDM 2005-044, Revisions to Policies for Limited-Scope Examination and
               Visitation Requirements;
           7. RDM 2006-002, Large Insured Depository Institution Risk Monitoring Program;
           8. RDM 03-017, Dedicated Examiner Program Guidelines; and
           9. RDM 2003-060, Large Insured Depository Institutions (LIDI) Process Redesign.

•   Obtained and reviewed Virtual Supervisory Information On the Net (ViSION) System
    reports for historical, application-related information and examinations for the 12 sampled
    ILC applications.

•   Reviewed deposit insurance applications, business plans, and other supplemental documents
    submitted with the application for the 12 sampled ILCs.




                                                33
                                                                                    APPENDIX I


•   Reviewed ROIs for 11 of 12 sampled ILCs to determine whether the field examiner
    conducting the investigation evaluated the applicant against the seven statutory factors and
    assessed the applicant’s proposed business plan.

•   Reviewed the SOIs for the 12 sampled ILCs to determine whether the case manager
    addressed the seven statutory factors in the SOIs.

•   Reviewed FDIC Orders and determined the type of conditions (standard, nonstandard, and
    prudential) imposed on 18 ILCs. The 18 ILCs included the original sample of 12, as well as
    an additional 6 ILCs selected for review.

•   Reviewed visitation reports and ROEs for the 12 sampled banks to determine the extent to
    which the reports address compliance with the FDIC Orders and include evidence that
    business plans are monitored.

•   Interviewed field examiners to discuss field investigation procedures, including the
    evaluation of an applicant’s proposed business plan.

•   Interviewed Washington Office DSC and Legal Division officials as well as regional senior
    management, case managers, and field examiners to obtain an understanding of the deposit
    insurance application process and monitoring process, including compliance with deposit
    insurance Orders.

•   Reviewed field, regional, and Washington Office files for the 12 sampled ILCs for
    documents related to the deposit insurance application process and monitoring activities.

Validity and Reliability of Performance Measures

We reviewed the FDIC’s performance measures under the Government Performance and
Results Act, the Corporate Performance Objectives, and the FDIC’s Annual Performance Plan.
We determined that the 2005 Annual Performance Plan did not include an initiative relating to
the Corporation’s deposit insurance application process. The 2005 Corporate Performance
Objectives included an initiative to refine and communicate FDIC strategies for assuring the
safe and sound operation of ILCs.

Reliability of Computer-based Data

We used computer-based data and reports from the ViSION system. However, we did not test
the reliability of computer-based data extracted from ViSION because these data are not
significant to our findings, conclusions, or recommendations.

Management Controls

We gained an understanding of relevant control activities by reviewing the FDIC’s policies and
procedures for (1) reviewing, investigating, and approving ILC applications for deposit
insurance and (2) monitoring business operations to ensure adherence to conditions imposed on



                                                34
                                                                                   APPENDIX I

ILCs and their business plans. To gain this understanding, we interviewed officials involved in
the deposit insurance application process, including: Washington Office officials, case
managers, field examiners, and Legal Division officials. We also reviewed organizational
charts, and other OIG audits and evaluations related to ILCs and business plans.

Laws and Regulations

We gained an understanding of certain aspects of the FDI Act related to applications for deposit
insurance and seven statutory factors and Part 303 of the FDIC Rules and Regulations. We also
reviewed FDIC Delegations of Authority relating to 12 C.F.R. Part 303 – Notices and Filings,
Enforcement Actions, Transfer Agents, and Pledge Agreements to identify standard conditions
for deposit insurance Orders.

Fraud and Illegal Acts

The nature of our evaluation objective did not require that we assess the potential for fraud and
illegal acts. However, throughout the evaluation, we were alert to the potential for fraud and
illegal acts, and no instances came to our attention.

Summary of Prior Coverage

In September 2004, the FDIC OIG issued Evaluation Report 2004-048 entitled, The Division of
Supervision and Consumer Protection’s Approach for Supervising Limited-Charter Depository
Institutions. The OIG concluded that ILCs may pose additional risks to the deposit insurance
fund by virtue of the fact that these depository institutions’ parent holding companies are not
always subject to the scope of consolidated supervision, consolidated capital requirements, or
enforcement actions imposed on parent organizations subject to the Bank Holding Company Act.
Further, the banking organizations that are being created as a result of ILC charter powers allow
some mixing of banking and commerce, which is otherwise prohibited for most depository
institutions owned by commercial firms. However, DSC had established controls to help
mitigate these added risks. Also, during 2004, DSC issued revised guidance regarding deposit
insurance applications, safety and soundness examinations, and offsite monitoring with a focus
on limited-charter depository institutions, including ILCs. These controls helped to mitigate the
additional risks and supervisory challenges presented by ILCs and their non-bank holding
company parents.

The report included eight recommendations designed to improve the deposit insurance
application, safety and soundness examination, and offsite monitoring processes. The FDIC
generally concurred with the recommendations.




                                               35
                                                                                                               APPENDIX II


TYPES OF CONDITIONS THAT MAY BE IMPOSED

The FDIC uses conditions to impose restrictions and to establish operating parameters and
controls for the institution for a set period of time, usually up to the first 3 years of operation or
for an indefinite period of time. Table 10 describes the types of conditions that the FDIC may
impose when approving deposit insurance applications.

Table 10: Types of Conditions That May Be Imposed on Deposit Insurance Applicants
                                                                                                           Time-Specific or
 Type of Condition                                 Authoritative Source
                                                                                                              Ongoing
Standard Condition          FDIC Rules and Regulations Section 303.2(dd) identifies four              Time-Specific condition
                            standard conditions.*                                                     must be achieved before
                                                                                                      the financial institution is
                                                                                                      insured.
Other Standard              FDIC Delegations of Authority Relating to 12 C.F.R. Part                  May be Time-Specific or
Conditions                  303, outlines 15 other standard conditions that may be                    Ongoing, depending upon
                            imposed. One of the 15 conditions was identical to the “State             circumstances of the
                            Approval Obtained” standard condition pursuant to the FDIC                application.
                            Rules and Regulations. These conditions are illustrated in the
                            subsection of this report entitled, Standard and Nonstandard
                            Conditions.
Prudential                  DSC’s Regional Director Memorandum 2004-011, dated                        May be Time-Specific or
Nonstandard                 March 12, 2004, includes six examples of prudential                       Ongoing, depending upon
Conditions                  nonstandard conditions that essentially address the                       the circumstances of the
                            relationship between financial institutions and their parent              application.
                            companies -- See Appendix III. Prudential conditions are
                            further discussed in the subsection of this report entitled,
                            Prudential Conditions on ILC Applicants.
Other Nonstandard           The FDIC may impose conditions on insurance where those                   May be Time-Specific or
Conditions                  conditions are warranted by the statutory factors, pursuant to            Ongoing, depending upon
                            the FDI Act. Nonstandard conditions must be agreed-to in                  the circumstances of the
                            writing by the applicant. Appendix V of this report illustrates           application.
                            other nonstandard conditions that the FDIC imposed on the
                            12 ILC applicants we selected for review.
Source: OIG review of applicable FDIC guidance.
* Standard conditions pursuant to Section 303.2(dd) of the FDIC Rules and Regulations are: (1) applicant has obtained all
necessary and final approvals from the federal or state authority; (2) if transaction does not take effect within a specified period
of time, consent shall expire; (3) until conditional commitment of the FDIC becomes effective, the FDIC retains the right to alter,
suspend, or withdraw its commitment, if warranted; and (4) in the case of a merger transaction, that the proposed transaction be
consummated within 30 calendar days of the Order approving the merger transactions.


The term “standard conditions” refers to conditions that may be imposed as a routine matter in an
Order or letter approving a filing, whether or not the applicant has agreed in writing to their
inclusion. Standard conditions may include the amount and type of capital required, the need for
an annual audit, changes in ownership or management prior to opening, and other conditions
relating to the findings on the statutory factors. Under the FDIC’s delegated authority, applicants
must provide written agreement with nonstandard conditions imposed upon them. Examples of
nonstandard conditions are detailed in the section of this report entitled, Imposing Conditions
Associated with Deposit Insurance Orders.




                                                                36
                                                                                         APPENDIX III



PRUDENTIAL CONDITIONS

DSC issued RDM 2004-011 entitled, Imposition of Prudential Conditions in Approvals of
Applications for Deposit Insurance (RDM 2004-011), dated March 12, 2004, which
identified prudential (nonstandard) conditions that should be considered in processing
applications that present unique characteristics or involve an institution that is to be
owned by or significantly involved in transactions with commercial or financial
companies, should the risk characteristics of a given proposal warrant such action.

Table 11 presents the examples referenced in RDM 2004-011 as being among the
nonstandard conditions imposed in prior approval actions.

Table 11: FDIC Prudential Conditions in Orders for Deposit Insurance
 Nonstandard Prudential Conditions

    The organizers will appoint a board of directors, the majority of which will be independent of the
     bank's parent company and its affiliated entities. The board of directors must possess the
     knowledge, experience, and capability to carry out the responsibilities of the position in a safe and
     sound manner and independent of the activities.

    The bank will appoint and retain knowledgeable, experienced, and independent executive officers.

    The bank will develop and maintain a current written business plan that is adopted by the bank's
     board of directors, appropriate to the nature and complexity of the activities conducted by the bank,
     and separate from the business plan of the affiliated entities.

    The bank conducts business pursuant to operating policies that are commensurate with the proposed
     business plan, independent from those of affiliated entities, and adopted by the board of directors of
     the bank. Further, the board will ensure that executive officers are delegated reasonable authority to
     implement and enforce the policies independently of the bank’s parent and affiliated entities.

    The bank will adhere to generally accepted accounting principles, maintain separate accounting and
     other business records, and ensure that the bank’s books and records are maintained under the
     control and direction of authorized bank officials and are available for review by the FDIC at the
     bank’s main office.

    To the extent management, staff, or other personnel or resources are employed by both the bank and
     the bank's parent company or any affiliated entities, the bank's board of directors will ensure that
     such arrangements are governed by written contracts giving the bank the authority and control
     necessary to direct and administer the bank's affairs.
Source: DSC RDM 2004-011.




                                                    37
                                                                                                                                                                                 APPENDIX IV

REVIEW OF KEY ILC APPLICATION PROCESSING STEPS




                                                                                            Electronic




                                                                                                                                            Goldman




                                                                                                                                                                    Financial
        FDIC’s Deposit Insurance




                                                                                                                                                                                            Brothers
                                                                                                                                                                                            Lehman
                                                                     Express




                                                                                                                                                        Savings
                                                                     Wright




                                                                                                                                                                     Toyota
                                                                                                                      Exante
                                                         Bowes




                                                                                                          Volks-
                                                                                                          wagen




                                                                                                                                                                                  Target
                                                         Pitney




                                                                                  BMW




                                                                                                                                             Sachs
                                                                                                                                  UBS
                                                                                               First




                                                                                                                                                         Beal
            Application Process

Date Insured (Month/Year)                                01/98       06/98       11/99       10/00        01/02      07/03       09/03       07/04      08/04       08/04       09/04       08/05
Holding a pre-filing meeting
                                                          9          9a          ─b          ─b            9          9          ─b           9          ─b           9          9c          ─b
Reviewing the application for
completeness
                                                          9          9           9           9             9          9          9            9          9            9          9           9
Processing the application at the regional
and Washington Office level
                                                          9           9           9           9            9          9           9           9           9           9           9           9
Conducting a field investigation and a
review of the proposed business plan
                                                          9           9           9           9            9          9           9           9          ─d           9           9           9
Reviewing the report of investigation and
preparing the summary of investigation
                                                          9           9           9           9            9          9           9           9          9e           9           9          9f
Preparing an Order for deposit insurance
containing standard and nonstandard
                                                          9           9           9           9            9          9           9           9           9           9           9           9
conditions
Obtaining applicant’s written agreement
to nonstandard conditions
                                                         N/A         N/A          9           9            9         ─g           9          ─h          ─i           9          ─j           9
Acquiring evidence of applicant’s
compliance with, or arrangements to
                                                          9          ─k           9           9           ─k         ─k           9          ─k          ─k           9          ─k          ─l
comply with, the conditions in the Order
Source: OIG review of ILC deposit insurance application files.
a
  There was no documentation of a pre-filing meeting; however, bank correspondence indicated that a pre-filing meeting took place. (DSC’s policies do not require that pre-filing meetings be
documented.)
b
  There was no documentation of a pre-filing meeting.
c
  There was no documentation of a pre-filing meeting; however, the case manager stated that a pre-filing meeting took place.
d
  The Regional Director waived the field investigation, and DSC provided an explanation.
e
  The SOI was completed based, in part, on the results of a safety and soundness examination.
f
  The SOI did not address the statutory factor Consistency of Corporate Powers.
g
  The applicant’s written agreement did not cover all nonstandard conditions. DSC provided information indicating that the applicant’s agreement to the remaining two nonstandard conditions is
included in the business plan submitted with the application.
h
  The applicant’s agreement did not cover all nonstandard conditions. DSC provided information indicating Washington Office acknowledgment of the applicant’s agreement with one of the three
remaining nonstandard conditions concerning the establishment of stock benefit plans. DSC indicated that the applicant’s business plan states that the ILC did not anticipate paying a dividend during the
first 3 years of operations – one of the three remaining nonstandard conditions. The information that DSC provided did not address the third nonstandard condition concerning outside directors.
i
  No written agreement was in the files that we reviewed.
j
  The applicant’s written agreement did not cover all nonstandard conditions.
k
  The document we obtained did not address all conditions.
l
  No document was in the files that we reviewed.




                                                                                                     38
                                                                                                                                                                           APPENDIX V

  REVIEW OF CONDITIONS IMPOSED FOR THE 12 SAMPLED ILCS




                                                                                                                                                                                                    No. of Times
                                                                                                                                                     Beal Savings
                                                                                                               Volkswagen
                                                                                                  Electronic




                                                                                                                                           Goldman



                                                                                                                                                                    Financial




                                                                                                                                                                                         Brothers
                                                                                                                                                                                         Lehman

                                                                                                                                                                                                      Applied
                                                                                  Express
                                                                                  Wright




                                                                                                                                                                     Toyota
                                                                                                                            Exante
                                                                         Bowes




                                                                                                                                                                                Target
                                                                                            BMW




                                                                                                                                            Sachs
                                                                         Pitney




                                                                                                                                     UBS
                                                                                                     First
Standard Conditions Pursuant to Regulation
State Approval Obtained
                                                                          9        9 9 9 9 99 9 9 9 9 9                                                                                                12

One-Year Time Limit for Deposit Insurance to Become Effective
                                                                          9        9 9 9 9 99 9 9 9 9 9                                                                                                12

Conditional Commitment and Interim Developments
                                                                          9        9 9 9 9 99 9 9 9 9 9                                                                                                12

Merger Transaction: Consummation Period                                                                                                                                                                   0
Standard Conditions Pursuant to Delegated Authority
Beginning Paid-in Capital Funds
                                                                          9        9 9 9 9 99 9 9                                                                     9 9 9                            12

Maintenance of 8% Tier 1 Leverage Capital Ratio for 3 Years
                                                                          9        9 9 9 9 99 9 9                                                                     9 9                              11

Approval of Changes in Proposed Management and Ownership
                                                                          9        9 9 9 9 99 9 9                                                                     9 9 9                            12

Adoption of an Accrual Accounting System
                                                                                     9 9    9   9                                                                     9                                   5

Consummation of Related Transaction                                                                                                                                                                       0
Proposed Holding Company Approval to Acquire Control                                                                                                                                                      0

Submission of Proposed Agreements for Permanent Quarters
                                                                                                                                                       9                                                  1

Disclosure of Insider Interest
                                                                                                                                                     9 9                                                  2

Acceptable Principal Operating Officer(s)
                                                                                                                                             9                                  9                         2

Adequate Fidelity Coverage
                                                                                             9 9    9   9 9                                                                                               5

Independent Financial Statement Audit for 3 Years
                                                                                             9 9   99 9 9 9 9 9                                                                                           9

Notification of Material Changes to the Business Plan for 3 Years
                                                                                               9 9 99 9 * 9 9 *                                                                                           7

Acquisition and Maintenance of Requisite Deposits
                                                                          9                                                                                                                               1




                                                                    39
                                                                                                                                                                                         APPENDIX V




                                                                                                                                                                                                                  No. of Times
                                                                                                                                                                   Beal Savings
                                                                                                                             Volkswagen
                                                                                                                Electronic




                                                                                                                                                         Goldman



                                                                                                                                                                                  Financial




                                                                                                                                                                                                       Brothers
                                                                                                                                                                                                       Lehman

                                                                                                                                                                                                                    Applied
                                                                                                Express
                                                                                                Wright




                                                                                                                                                                                   Toyota
                                                                                                                                          Exante
                                                                                       Bowes




                                                                                                                                                                                              Target
                                                                                                          BMW




                                                                                                                                                          Sachs
                                                                                       Pitney




                                                                                                                                                   UBS
                                                                                                                   First
Prudential Nonstandard Conditions
Retention of a Majority of Independent Directors
                                                                                                                                                                                              9                        1

Retention of Independent and Experienced Officers                                                                                                                                                                      0
                                                                                          The prudential conditions guidance
Maintenance of a Separate Current Written Business Plan                                (RDM 2004-011) had not been issued at                                                                                           0
Performance of Bank Operations Independent of Affiliates                                 the time that these applications were                                                                                         0
                                                                                                       processed.
Maintain Separate Accounting and Other Business Records                                                                                                                                                                0
Written Contracts for Shared Personnel and Resources                                                                                                                                                                   0
Other Nonstandard Conditions
No Dividend Distribution Without Prior Approval for 3 Years
                                                                                                                                            9              9                                  9                        3
Ongoing Notification of Material Changes to the Business Plan
                                                                                                                                                                   9                                     9             2
Retention of a Majority of Outside Directors
                                                                                                                                            9              9                                             9             3
Applicant's Parent Shall Establish a Designated Agent and Consent to be Subject
to U.S. Court Jurisdiction on Domestic Banking Issues
                                                                                                                             9                     9                                9                                  3

No Transactions with Non-U.S. Financial Affiliates Without Prior Approval
                                                                                                                             9                                                      9                                  2
Maintain Current Information on Non-U.S. Financial Affiliates
                                                                                                                             9                                                      9                                  2
Capital Maintenance and Liquidity Agreement
                                                                                                                                                                                              9                        1
Establishment of Stock Benefit Plan: Subject to Review and Approval for 3 Years
                                                                                                                                                           9                                                           1
Establishment of Electronic Information System Program
                                                                                                           9                                                                                                           1
Purchase of Affiliate Assets: Compliance with 23A/23B
                                                                                                                                                                                                         9             1
Outsourced Functions to Service Providers Subject to Examinations
                                                                                                                                                   9                                                                   1
Applicant's Parent Shall Provide Binding Commitment Permitting Examination of
any Bank Affiliate
                                                                                                                                                   9                                                                   1

Maintain a Risk Control Unit Managed Solely by Bank--Retain Chief Investment
Officer
                                                                                                                                                   9                                                                   1

 Source: OIG review of ILC deposit insurance Orders.
 * ILC is subject to a nonstandard ongoing business plan condition.

                                                                                  40
                                                                                                                                                                                   APPENDIX VI

REVIEW OF CONDITIONS IMPOSED – EXPANDED SAMPLE FOR ILC INSURANCE ORDERS GRANTED FROM
MARCH 2004 TO OCTOBER 2005




                                                                                                                         Independence
                                                                          Beal Savings




                                                                                                                                                                                                      No of Times
                                                                                                                                                     Corporation



                                                                                                                                                                   Automotive
                                                                                                                                        Allegiance




                                                                                                                                                                                         Sallie Mae
                                                                Goldman




                                                                                         Financial




                                                                                                              Brothers
                                                                                                              Lehman




                                                                                                                                                                                                       Applied
                                                                                                                                                                                Magnet
                                                                                                                                                                    GMAC
                                                                                          Toyota


                                                                                                     Target




                                                                                                                                          Direct
                                                                 Sachs




                                                                                                                                                       Lease
Standard Conditions Pursuant to Regulation
State Approval Obtained
                                                                 ; ; ; ;                                      ;          ; ;                           ;                        ; ;                     10

Time Limit for Deposit Insurance to Become Effective (1 Year
Expiration on Approval)
                                                                 ; ; ; ;                                      ;          ; ;                           ;           ;            ; ;                     11

Conditional Commitment and Interim Developments
                                                                 ; ; ; ;                                      ;          ; ;                           ;           ;            ; ;                     11

Merger Transaction: Consummation Period                                                                                                                                                                    0
Standard Conditions Pursuant to Delegated Authority
Beginning Paid-in Capital Funds
                                                                 ; ; ; ;                                      ;          ; ;                           ;           ;            ; ;                     11

                                                                 ; ; ; ;                                                 ;                                         ;            ; ;
Maintenance of an 8 Percent Tier 1 Leverage Capital Ratio for                                                   a          a                              a                                               8
3 Years
Approval of Changes in Proposed Management and Ownership
                                                                 ; ; ; ;                                      ;                         ;            ;                          ; ;                       9

Adoption of an Accrual Accounting System
                                                                   ; ;                                                                               ;                          ; ;                       5

State Approval Obtained                                                                                                                                                                                   0
Consummation of Related Transaction                                                                                                                                                                       0
Proposed Holding Company Approval to Acquire Control                                                                                                                                                      0
Submission of Proposed Agreements for Permanent Quarters
                                                                            ;                                                                                                                             1

Disclosure of Insider Interest
                                                                          ; ;                                                                                                                             2

Acceptable Principal Operating Officer(s)
                                                                 ;                                   ;                                                                                                    2

Adequate Fidelity Coverage
                                                                   ; ;                                                   ;                           ;                          ; ;                       6

Independent Financial Statement Audit for 3 Years
                                                                 ; ; ; ;                                      ;          ; ;                         ; ;                        ; ;                     11




                                                                           41
                                                                                                                                                                                     APPENDIX VI




                                                                                                                           Independence
                                                                            Beal Savings




                                                                                                                                                                                                            No of Times
                                                                                                                                                       Corporation



                                                                                                                                                                     Automotive
                                                                                                                                          Allegiance




                                                                                                                                                                                               Sallie Mae
                                                                  Goldman




                                                                                           Financial




                                                                                                                Brothers
                                                                                                                Lehman




                                                                                                                                                                                                             Applied
                                                                                                                                                                                  Magnet
                                                                                                                                                                      GMAC
                                                                                            Toyota


                                                                                                       Target




                                                                                                                                            Direct
                                                                   Sachs




                                                                                                                                                         Lease
                                                                   ;                        ; ;                            ;                           ;             ;            ;
Notification of Proposed Material Changes to the Business Plan              b                                     b                           b                                            b                    7
for 3 Years
Acquisition and Maintenance of Requisite Deposits                                                                                                                                                               0
Prudential Nonstandard Conditions
Retention of a Majority of Independent Directors
                                                                                                       ;                                                                                                       1

Retention of Independent and Experienced Executive Officers                                                                                                                                                    0
Maintenance of a Separate Current Written Business Plan                                                                                                                                                        0
Performance of Bank Operations Independent of Affiliated                                                                                                                                                       0
Entities
Maintenance of Separate Accounting and Other Business Records                                                                                                                                                  0
Utilization of Written Contracts to Govern Shared Personnel and                                                                                                                                                0
Resource Arrangements
Other Nonstandard Conditions
No Dividend Distribution Without Prior Approval for 3 Years
                                                                   ;                                   ;                                   ;             ;                                 ;                   5

Ongoing Notification of Proposed Material Changes to the
Business Plan
                                                                            ;                                   ;                          ;                                               ;                   4

Retention of a Majority of Outside Directors
                                                                   ;                                            ;                                                                                              2

Applicant's Parent Shall Establish a Designated Agent and
Consent to be Subject to U.S. Court Jurisdiction on Domestic
                                                                                            ;                                                                                                                  1

Banking Issues
No Transactions with Non-U.S. Financial Affiliates Without
Prior Approval
                                                                                            ;                                                                                                                  1

Maintain Current Information on Non-U.S. Financial Affiliates
                                                                                            ;                                                                                                                  1

Capital Maintenance and Liquidity Agreement
                                                                                                       ;                                                                                                       1

Establishment of Stock Benefit Plan: Subject to Review and
Approval for 3 Years
                                                                   ;                                                                                                                                           1




                                                                             42
                                                                                                                                                                                         APPENDIX VI




                                                                                                                               Independence
                                                                                Beal Savings




                                                                                                                                                                                                            No of Times
                                                                                                                                                           Corporation



                                                                                                                                                                         Automotive
                                                                                                                                              Allegiance




                                                                                                                                                                                               Sallie Mae
                                                                      Goldman




                                                                                               Financial




                                                                                                                    Brothers
                                                                                                                    Lehman




                                                                                                                                                                                                             Applied
                                                                                                                                                                                      Magnet
                                                                                                                                                                          GMAC
                                                                                                Toyota


                                                                                                           Target




                                                                                                                                                Direct
                                                                       Sachs




                                                                                                                                                             Lease
    Purchase of Affiliate Assets: Compliance with 23A/23B
                                                                                                                    ;                                                                 ;                        2

    Maintenance of a 10 Percent Tier 1 Leverage Capital Ratio for
    3 Years
                                                                                                                                                             ;                                                 1

    Change in Officers or Directors and Duties and Responsibilities
    Receives Prior Approval
                                                                                                                               ;                                                                               1

    Develop Method for Allowance for Loan and Lease Loss
    Adequacy
                                                                                                                                                                         ;                                     1

    Majority of Outside Members for Executive Committee
                                                                                                                                                                         ;                                     1

    No Entity Holding > 6% or More Control Shall Occupy Specific
    Positions without Prior Approval
                                                                                                                                                                                      ;                        1

    No Entity Holding > 6% or More Shall Directly or Indirectly
    Control or Influence
                                                                                                                                                                                      ;                        1

    No Entity Holding > 6% or More Shall Engage in Transactions
    with Subject or Its Affiliates
                                                                                                                                                                                      ;                        1

    Notification of Change in Performance with Principle
    Agreements.
                                                                                                                                                                                               ;               1

    Approval of Changes in Management/Ownership (Changed from
    10% to 5% of Stock Ownership)
                                                                                                                               ;                                                                               1

    Capital To Be Maintained as "Well Capitalized" for 3 years.
                                                                                                                                                                         ;                                     1
Source: OIG review of ILC deposit insurance Orders.
a
  The Order for one of the three ILCs contained a nonstandard condition for capital maintenance of greater than 8 percent. The business plan for one of the three
ILCs reflects capital maintenance in excess of 12 percent for the first 3 years of operations. In addition, the Chartering State Authority imposed capital
maintenance conditions of greater than 8 percent for the three ILCs.
b
  These ILCs were subject to nonstandard ongoing business plan conditions.




                                                                                 43
                                                                                                  APPENDIX VII

CHARTERING STATE AUTHORITY CONDITIONS THAT RESEMBLE FDIC
PRUDENTIAL CONDITIONS

We performed a review of all state chartering Orders issued to ILCs from March 2004 through
October 2005 to identify those state conditions that could be viewed as a variation of the FDIC’s
prudential conditions. Table 12 presents the results of our review.

Table 12: Chartering State Authority Conditions and Prudential Conditions
  State Conditions With Potential Similarity          Times
                                                                                Results of Review
          to Prudential Conditions                   Applied
  Retention of a Majority of Outside-                 7        The similarity to prudential conditions is strong.
   Unaffiliated Directors                                       These conditions address the board of directors’
                                                                independence from the applicant’s parent and
                                                                affiliated entities. The conditions used the term
                                                                “outside-unaffiliated,” as opposed to “independent,”
                                                                but the terms generally appear equivalent.
  Maintain Certain Executive Officers and             7        The similarity to prudential conditions is strong.
   Support Staff to Manage the Risks,                           These conditions address the applicant’s
   Maintain Direct Control, and Retain the                      independence and need to provide direct control.
   Applicant’s Independence From the Parent                     However, not all executive officers were included,
   Company                                                      and the conditions did not address independence
   - Maintain Certain Executive Officers and                    from affiliated entities.
     Support Staff Headquartered in                             Also of note, for two of seven conditions reviewed,
     [City/State]                                               the state’s conditions included a corresponding
                                                                segment concerning the location of the bank's
                                                                headquarters.
  Neither of Two Venture Capital Funds                1        A potential similarity to prudential conditions
   with Controlling Interest (not exceeding                     exists; however, none of the prudential conditions
   9.9 percent each) Shall Engage in Any                        exhibited by DSC discussed related-party
   Intercompany Transactions with the Bank                      transactions. The term “Limiting Transactions”
   or Affiliates                                                entails the concepts of “Separation of Activities”
                                                                and “Independence.”
  Neither of Two Venture Capital Funds                2        The similarity to prudential conditions is moderate.
   with Controlling Interest (not exceeding                     These conditions indirectly address the
   9.9 percent each) Shall Occupy Specific                      independence of directors and management by
   Positions                                                    limiting the control and influence of a certain
  Neither of Two Venture Capital Funds                         segment of the applicant’s shareholders.
   with Controlling Interest (not exceeding
   9.9 percent each) Shall Directly or
   Indirectly Control or Influence
  Confirmation That the Proposed Holding              1        The similarity to prudential conditions is remote.
   Company Does not Have any Controlling                        While the condition addresses the degree of control
   Person                                                       maintained within the holding company, the
                                                                condition does not address the applicant’s
                                                                independence or the separateness from its parent
                                                                and affiliates.
Source: OIG analysis of State Orders for Charters.




                                                           44
                                                                                                    APPENDIX VIII

FDIC NONSTANDARD CONDITIONS THAT RESEMBLE PRUDENTIAL
CONDITIONS

To provide a balanced perspective, we performed a review of the 19 nonstandard conditions the
FDIC imposed in ILC Orders for deposit insurance issued from March 2004 through October
2005 to identify those conditions that showed a similarity to those prudential conditions
exhibited in RDM 2004-011. In particular, we identified and reviewed those conditions that
either resembled the prudential conditions illustrated in RDM 2004-011 or that addressed the
principle of the financial institution’s independence and separateness from its parent. Based on
this review, we identified 8 out of 19 conditions that were collectively used 13 times in 8 out of
11 Orders. Table 13 presents the results of our review.

Table 13: Similarity of FDIC Nonstandard Conditions and Prudential Conditions
                                                      No. of
 Other Nonstandard Conditions with Potential
                                                      Times                        Results of Review
     Similarity to Prudential Conditions
                                                     Applied
    Retention of a Majority of Outside Directors      3        The similarity to prudential conditions is remote.
    Majority of Outside Members for Executive                  While these conditions direct an applicant to appoint a
     Committee                                                  certain type of director, the conditions do not address
                                                                the directors’ independence from the applicant’s parent
                                                                and affiliated entities.


    Ongoing Notification of Proposed Material         4        The similarity to prudential conditions is remote.
     Changes to the Business Plan                               These conditions direct an applicant to submit annual
                                                                business plans but do not require that the business
                                                                plans be maintained separately from those of the
                                                                applicant’s parent and affiliated entities. In addition,
                                                                the conditions do not require that management be
                                                                provided reasonable authority and resources to
                                                                implement and carry out these plans independently of
                                                                the applicant’s parent and affiliated entities.


    Purchase of Affiliate Assets: Compliance          4        A potential similarity to prudential conditions exists;
     with 23A/23B                                               however, none of the prudential conditions exhibited
    No Transactions With Non-U.S. Financial                    by DSC discussed related-party transactions. Limiting
     Affiliates Without Prior Approval                          transactions and ensuring compliance with Sections
    No Entity Holding > 6% or More Shall                       23A and 23B of the Federal Reserve Act involve the
     Engage in Transactions With Subject or its                 concepts of “separation of activities” and
     Affiliates                                                 “independence.” However, adherence to regulatory
                                                                requirements would be expected regardless of the
                                                                condition’s existence.


    No Entity Holding > 6% or More Control            2        The similarity to prudential conditions is moderate.
     Shall Occupy Specific Positions Without                    These conditions indirectly address the independence
     Prior Approval                                             of directors and management by limiting the control
    No Entity Holding > 6% or More Shall                       and influence of the applicant’s shareholders.
     Directly or Indirectly Control or Influence

Source: OIG Analysis of FDIC Orders for Insurance.




                                                           45
                                                                                                            APPENDIX IX
INFORMATION REGARDING THE PROBABLE IMPACT OF APPLICANTS ON
EXISTING BANKS

ROIs for 11 of 12 sampled ILCs contained information about the probable impact of the
proposed institution on existing financial institutions in the community. We could not determine
the basis for some examiners’ comments in this regard. Table 14 illustrates the ROI comments
related to the probable impact of each ILC’s proposed business line on existing financial
institutions in the respective community and the basis for the comments.

Table 14: ROI Comments on the Probable Impact of Applicants on Existing Banks
                         ROI Comments on the Probable Impact of the Applicant’s
                                                                                                 Basis for Comments in the
        ILC             Proposed Business Line on Other Financial Institutions in the
                                                                                                            ROI
                                               Community
 Lehman Brothers      The ROI included banker comment summaries, which documented               Interview with local ILC
 Commercial Bank      bankers’ comments on the probable impact that the applicant’s             bankers.
                      proposed business line might have on their respective financial
                      institutions. However, the examiner did not address the probable
                      impact under any of the statutory factor sections of the ROI.
 Target Bank          “The anticipated volumes for commercial lending products offered          We could not determine the
                      by Target Bank are relatively small in relation to the overall market     basis.
                      for business lending and should have no material adverse effect on
                      any competing lenders.”
 Toyota Financial     “Given the extent of competition and available market share, the          Interview with ILC bankers
 Savings Bank         Applicant would not adversely impact competition in the delivery of       outside the local community.
                      financial services within the market area.”
 Beal Savings         An ROI was not prepared. There was no comment in the Summary              N/A
 Bank                 of Investigation.
 Goldman Sachs        The ROI included banker comment summaries, which documented               Interview with local ILC
 Bank USA             bankers’ comments on the probable impact that the applicant’s             bankers.
                      proposed business line might have on their respective financial
                      institutions. However, the examiner did not address the probable
                      impact under any of the statutory factor sections of the ROI.
 UBS Bank USA         “Applicant’s proposed business plan will not have a significant direct    We could not determine the
                      impact on competitors offering similar products and services, and if      basis.
                      successfully implemented, may attract new customers to the UBS
                      organization and result in an increase in its present nominal share of
                      the market.”
 Exante Bank          “Applicant will be doing business on a nationwide basis, and its          We could not determine the
                      business and marketing initiative will only indirectly affect the local   basis.
                      competition for deposits. …applicant’s proposal and banking
                      solution is unique and will not interfere or harm competition either
                      within the health care or banking industry.”
 Volkswagen Bank      “Applicant will be doing business on a nationwide basis, and its          We could not determine the
 USA                  marketing effort will only indirectly affect the local competition for    basis.
                      deposits.”
 First Electronic     “Applicant will be doing business on a nationwide basis, and its          Interview with local ILC
 Bank                 marketing emphasis and effort will only indirectly impact the local       bankers.
                      competition for deposits.”
 BMW Bank of          “The bank will only compete indirectly against local financial            Interview with local ILC
 North America        institutions and should have a minimal effect on the local market.”       bankers and one official from
                                                                                                a national bank.
 Wright Express      “The local trade area is served by a number of large, medium, and          Interview with local ILC
 Financial Services  small commercial banks, credit unions, and federal savings banks.          bankers.
                     At the local level applicant is not anticipated to have any adverse
                     impact on any of these institutions.”
 Pitney Bowes        “There have been no critical comments or opposition to the addition        Interview with local ILC
 Bank, Inc.          of the proposed bank, and it appears that operations will not have a       bankers.
                     material adverse impact on any existing institutions.”
Source: OIG analysis of ROIs.
                                                               46
                                                                                                                                                                    APPENDIX X

RESULTS OF SAMPLE REVIEW OF FDIC ONSITE MONITORING EFFORTS




                              Pitney Bowes




                                                                                                                                              Beal Savings
                                                                                          Volkswagen
                                                                      Electronic




                                                                                                                                Goldman




                                                                                                                                                             Financial




                                                                                                                                                                                     Brothers
                                                                                                                                                                                     Lehman
                                             Express
                                             Wright




                                                                                                         Exante




                                                                                                                                                              Toyota



                                                                                                                                                                           Target
                                                          BMW




                                                                                                                                 Sachs
                                                                         First




                                                                                                                     UBS
         Activity



Date Insured               1/16/98           6/01/98   11/12/99     10/05/00            1/10/02        7/21/03    9/15/03      7/06/04     8/02/04           8/16/04     9/27/04     8/24/05
Onsite
Visitation
    6 month
                              •a               •a        •a             •a                •a             •a         •b              •         •a               9           9
Examination

    1st Year
                                 •             9         •a              •                •a             9          •c              •         9                9            •
    2nd Year
                              •               ─a         ─a              •               •a              9          •c
    3rd Year
                              ─               ─          ─               •               ─d
Legend: 9 = All Conditions Addressed with Statements of Fact                       • = General Statement That Conditions Were Met           ─ = Conditions Not Addressed
a
  The report addressed one or two conditions.
b
  This onsite review represents the first of three onsite targeted reviews conducted during the bank’s first year of operation.
c
  This onsite review represents the amalgamation of a series of onsite targeted reviews conducted during the year. While abbreviated versions of the conditions were listed in the
ROE, corresponding statements of fact were not presented.
d
  The examination began after the bank’s 3rd year anniversary of its date of obtaining insurance. As a result, the Examiner-in-Charge indicated that a review of the Order for
insurance was not necessary.




                                                                                                 47
Appendix XI
     APPENDIX XI




49
     APPENDIX XI




50
     APPENDIX XI




51
     APPENDIX XI




52
     APPENDIX XI




53
                                                                                                                       APPENDIX XII


                                      MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of
report issuance.


 Rec.                                                                             Expected         Monetary   Resolved:a    Open or
Number            Corrective Action: Taken or Planned/Status                   Completion Date     Benefits   Yes or No     Closedb
          DSC will issue instructions requiring documentation of
   1      pre-filing meetings and inclusion of the results of those            December 31, 2006      $0         Yes          Open
          meetings in the application materials submitted to examiners
          responsible for conducting field investigations of deposit
          insurance applications.
          DSC will review its policies and guidance regarding the need
   2      for, and importance of, conditions associated with deposit             June 30, 2007        $0         Yes          Open
          insurance applications. Based on the results of the review,
          DSC will determine where clarifying guidance should be
          developed and issued to address the recommendation.

          DSC will emphasize the need to obtain and document the
   3                                                                           December 31, 2006      $0         Yes          Open
          applicant’s agreement, in writing, to nonstandard conditions.

   4      DSC will clarify its expectations for regional and field officials
          to document evidence that the ILC has complied with all              December 31, 2006      $0         Yes          Open
          conditions stated in the deposit insurance Order.
   5      DSC will clarify corporate expectations for reviewing the
          statutory factors Convenience and Needs of the Community to            June 30, 2007        $0         Yes          Open
          be Served and Risk Presented to the Insurance Fund in deposit
          insurance investigations and emphasize that examiners should
          document the basis for their conclusions in the Convenience
          and Needs of the Community to be Served area in the ROI.




                                                                          54
                                                                                                                                           APPENDIX XII


 Rec.                                                                                     Expected              Monetary        Resolved:a        Open or
Number                 Corrective Action: Taken or Planned/Status                      Completion Date          Benefits        Yes or No         Closedb
              DSC will re-emphasize and clarify how examiners should
      6       address conditions in deposit insurance approval Orders and             December 31, 2006             $0              Yes             Open
              the status of conditions in visitation reports and ROEs.
a
    Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
              as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               55
